        OFFICE OF INSPECTOR GENERAL


                                 Catalyst for Improving the Environment


Evaluation Report




       Some States Cannot Address
       Assessment Needs and Face
       Limitations in Meeting Future
       Superfund Cleanup Requirements

       Report No. 2004-P-00027


       September 1, 2004
Report Contributors:                          Carolyn Copper
                                              Michael Owen
                                              Angela Bennett
                                              Johnny Ross
                                              Steve Textoris
                                              Bryan Holtrop
                                              Jessica Knight
                                              Eileen Collins




Abbreviations

ARARs           Applicable, or Relevant and Appropriate Requirements

CERCLA          Comprehensive Environmental Response, Compensation, and Liability Act

CERCLIS         Comprehensive Environmental Response, Compensation, and Liability Information
                System

CFR             Code of Federal Regulations

EPA             Environmental Protection Agency

FTEs            Full-Time Equivalents

GAO             General Accounting Office

GSI             Ground Water/Surface Water Interface

LTRA            Long-term Response Action

MCL             Maximum Contaminant Level

MCLGs           Maximum Contaminant Level Goals

NCP             National Contingency Plan

NPL             National Priority List

O&M             Operation and Maintenance

OIG             Office of Inspector General

OSWER           Office of Solid Waste and Emergency Response
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           WASHINGTON, D.C. 20460



                                                                                                 OFFICE OF
                                                                                            INSPECTOR GENERAL




                                           September 1, 2004


MEMORANDUM

SUBJECT:              Evaluation Report
                      Some States Cannot Address Assessment Needs and Face Limitations in
                      Meeting Future Superfund Cleanup Requirements
                      Report No. 2004-P-00027

FROM:                 Carolyn Copper /s/
                      Director of Program Evaluation: Hazardous Waste Issues
                      Office of Program Evaluation

TO:                   Thomas P. Dunne
                      Acting Assistant Administrator
                      Office of Solid Waste and Emergency Response

Attached is our report entitled Some States Cannot Address Assessment Needs and Face
Limitations in Meeting Future Superfund Cleanup Requirements. Our review evaluated
the effectiveness of States’ hazardous waste site cleanup programs, including those related to
Superfund projects, and their capacity to undertake future actions at sites that are either eligible for or
listed on the National Priorities List. We focused on cleanup programs in five States – New Jersey,
Michigan, Kansas, Pennsylvania, and Washington – and the extent to which they had processes in
place to identify, assess, and prioritize hazardous waste sites and use standard-based cleanup remedies
that provide long-term protection. Because States have a future responsibility to assume operation and
maintenance responsibilities for long-term response actions at National Priorities List sites, we also
evaluated the States’ capacity to undertake these actions.

The report contains findings and recommendations that describe problems the Office of Inspector
General (OIG) has identified and the corrective actions the OIG recommends. This report represents
the opinion of the OIG and the findings contained in this report do not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.
On July 28, 2004, the OIG issued a draft report to Office of Solid Waste and Emergency Response
(OSWER) and the States for review and comment. We received responses to the draft report from
OSWER and the five States reviewed, and they all generally agreed with the findings and
recommendations.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written response
within 90 days of the final report date. The response should address all recommendations. For
corrective actions planned but not completed by the response date, please describe the actions that are
ongoing and provide a timetable for completion. Reference to specific milestones for these actions will
assist in deciding whether to close this report in the assignment tracking system.

We have no objection to the further release of this report to the public. Should you or your staff have
any questions regarding this report, please contact me at (202) 566-0829 or Michael Owen, the
assignment manager, at (206) 553-2542.
                        Executive Summary
Purpose

     The Environmental Protection Agency (EPA) is currently considering the future direction of the
     Superfund program. This consideration includes Superfund’s relationship to State hazardous
     waste site cleanup programs and how the Nation’s waste programs can work together in a
     more effective and unified fashion. Our review evaluated the effectiveness of State hazardous
     waste site cleanup programs, including those related to Superfund projects, and their capacity
     to undertake future cleanup actions at sites that are either eligible for or listed on the National
     Priorities List (NPL). We focused on cleanup programs in five States – New Jersey, Michigan,
     Kansas, Pennsylvania, and Washington – and the extent to which they had processes in place
     to identify, assess, and prioritize hazardous waste sites and use standard-based cleanup
     remedies that provide long-term protection. We addressed the following questions:

             •   Have the States established processes that identify, assess, and prioritize cleanups
                 to ensure that sites with the greatest threats to public health and the environment are
                 being addressed promptly?

             •   Are cleanup standards and remedies used by the States based on risk and sound
                 science and do they provide long-term protection for public health and the
                 environment?

     Because States have a future responsibility to assume operation and maintenance (O&M)
     responsibilities for long-term response actions (LTRAs) at NPL sites, we also evaluated the
     States’ capacity to undertake these actions.

     This work is intended to assist EPA with decisions concerning whether the States should play a
     greater role in the Superfund program.

Results

     The five States have established hazardous waste site cleanup programs that address
     contaminated sites posing human health and environmental risks ranging from low to high. Over
     5,400 hazardous waste sites are being addressed by these programs, including more than 1,700
     sites that could be considered NPL-caliber (hazardous waste sites that were not included on
     the NPL but appeared to be eligible). However, the States’ abilities to meet current and/or
     future responsibilities for the Superfund program as well as their own cleanup programs are
     limited. Specifically, we found that States have backlogs in addressing hazardous waste sites,
     use flexible remedy decision processes that are not equivalent to Superfund’s process, and
     appear to be significantly challenged in their ability to meet their required, and impending
     obligations at current Superfund sites.
    States Need to Address Backlogs in Site Assessments and Scoring

    All five States reviewed have implemented processes for identifying, assessing, investigating,
    and prioritizing hazardous waste sites which are similar to EPA’s remedial process for the
    Superfund program. However, three of the States had a combined backlog of at least 423 sites
    that were awaiting site assessment, and one of these States may also have a backlog in scoring
    sites. Although one of the remaining two States also appeared to have a backlog, there was
    insufficient data for determining whether a backlog exists. According to State officials, the
    backlogs were primarily attributable to limitations in Federal and State funding. Until these
    backlogs are eliminated, the States cannot assure that sites posing the greatest threat to human
    health and the environment are being addressed promptly, and the backlog may limit the States’
    capacity to address future hazardous waste sites, including sites on the NPL.

    States Apply Remedy Decision Processes That Are More Flexible Than
    Superfund’s Process

    The States have developed cleanup standards that are based on risk and sound science and are
    intended to be protective of human health and the environment. Additionally, processes used
    by the States to characterize contamination, assess risks, and make remedy decisions generally
    incorporate sound scientific analysis and are similar, but not equivalent, to EPA’s remedy
    decision process for Superfund. The States generally use streamlined decision processes that
    do not include the Superfund equivalent baseline risk assessments established by EPA.
    However, we found that the States’ decision processes for NPL-caliber sites generally provide
    remedies that are designed to be protective to human health and the environment. Therefore, if
    EPA wants the States to assume a larger role in addressing NPL sites, it should consider giving
    the States greater flexibility in their remedy selection processes.

    States May Not Be Able to Support Impending Operation and Maintenance
    Responsibilities

    We also found that four of the five States reviewed may not have the resources to undertake
    their future O&M LTRA obligations because of declining budgets. Further, the States are
    concerned that they may be required to assume O&M responsibilities for ineffective and/or
    inefficiently performing LTRAs. They are concerned about the performance of the LTRAs
    because EPA may not conduct optimization studies on all of the systems. Consequently, States
    may not be able to maintain the integrity of remedies and ensure protection to human health and
    the environment, and assuming inadequate LTRAs can result in the States incurring
    unanticipated costs.

Recommendations

    If EPA desires States to assume greater responsibilities in Superfund remedy decision
    processes or actions, we recommend that the Agency work with States to determine the key

                                               ii
    reasons for the backlogs in completing site assessments, and consider streamlining the
    Superfund remediation process to provide States more flexibility in the application of baseline
    risk assessments. We also recommend that EPA work with the States to explore viable funding
    and staffing options to support their O&M responsibilities for LTRAs at NPL sites, and
    complete guidance on optimization of LTRAs at NPL sites.

Agency and State Comments and OIG Evaluation

    OSWER agreed with the findings and recommendations and generally noted that the OIG’s
    focused recommendations will assist them in enhancing the role of States as co-implementers of
    the Superfund program. Additionally, OSWER identified plans to implement the report
    recommendations and did not identify any factual inaccuracies in the information presented.

    The five States generally agreed with the findings. New Jersey, Michigan, and Kansas also
    generally agreed with the recommendations; however, Pennsylvania and Washington did not
    comment on them. Additionally each of the States provided comments to clarify its respective
    portions of the report content, and we have incorporated these comments in the report as
    appropriate. Although the States generally agreed with the report, Michigan, Kansas, and
    Washington expressed concern over the title of the report. Kansas and Washington also
    commented that their backlog consisted of lower risk sites. We made a minor revision to the
    report’s title in response to the States’ concerns. With regard to the States’ comments on their
    backlog, Kansas and Washington made their risk determination based on incomplete site
    characterization information. As discussed in Chapter 2 of this report, the States cannot be
    assured of the full risk that these sites pose to human health and the environment until the
    assessments are completed.




                                               iii
iv
                                       Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      i


 Chapters
          1          Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

          2          States Need to Address Backlogs in Site Assessments and Scoring . . . .                                               5

          3          States Apply Remedy Decision Processes That Are
                     More Flexible Than Superfund’s Process . . . . . . . . . . . . . . . . . . . . . . . . .                             13

          4          States May Not Be Able to Support Impending
                     Operation and Maintenance Responsibilities . . . . . . . . . . . . . . . . . . . . . . . 21


 Appendices
          A          Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

          B          Details on States’ Hazardous Waste Site Cleanup Programs . . . . . . . . . . . 29

          C          Systems Used for Scoring Sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

          D          Memorandum to Region 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

          E          Superfund NPL LTRA Sites Pending State Assumption
                     Over 10-Year Period (2004-2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

          F          Agency’s Comments to Draft Evaluation Report . . . . . . . . . . . . . . . . . . . . . 47

          G          New Jersey’s Comments to Draft Evaluation Report . . . . . . . . . . . . . . . . . 53

          H          Michigan’s Comments to Draft Evaluation Report . . . . . . . . . . . . . . . . . . . . 59

           I         Pennsylvania’s Comments to Draft Evaluation Report . . . . . . . . . . . . . . . . 65

          J          Kansas’ Comments to Draft Evaluation Report . . . . . . . . . . . . . . . . . . . . . . 69

          K          Washington’s Comments to Draft Evaluation Report . . . . . . . . . . . . . . . . . 79

          L          Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85



                                                                     v
                                  Chapter 1
                                    Introduction
Purpose

          The Environmental Protection Agency (EPA) is currently considering the future
          direction of the Superfund program. This consideration includes Superfund’s
          relationship to State hazardous waste cleanup programs and how the Nation’s waste
          programs can work together in a more effective and unified fashion. This evaluation
          sought to assess the effectiveness of State hazardous waste site cleanup programs,
          including those related to Superfund projects, and their capacity to undertake future
          cleanup actions at sites that are either eligible for or listed on the National Priorities List
          (NPL). All the States currently have their own hazardous waste site cleanup programs
          that address sites not on the NPL. However, EPA has not conducted a formal study to
          assess how effective State programs have been in remediating sites eligible for the NPL
          and their capacity to undertake future cleanup actions for these sites. Therefore, we
          addressed the following questions:

          •   Have the States established processes that identify, assess, and prioritize cleanups
              to ensure that sites with the greatest threats to public health and the environment are
              being addressed promptly?

          •   Are cleanup standards and remedies used by the States based on risk and sound
              science and do they provide long-term protection for public health and the
              environment?

          Because States have a future responsibility to assume operation and maintenance
          (O&M) responsibilities for long-term response actions (LTRAs) at NPL sites, we also
          evaluated the States’ capacity to undertake these actions.

Background

          In 1980, Congress enacted the Comprehensive Environmental Response,
          Compensation, and Liability Act (CERCLA), which established EPA’s hazardous
          release reporting and cleanup program, known as Superfund. As required by section
          105 of CERCLA, the National Contingency Plan (NCP), 40 Code of Federal
          Regulations Part 300, provides the organizational structure and procedures for
          preparing for and responding to discharges of oil and hazardous substances, pollutants,
          and contaminants. CERCLA and the NCP also authorize States to participate in the
          cleanup process.


                                                1
EPA places the nation’s most seriously contaminated sites on its NPL. As shown in
Figure 1-1, there are currently 1,518 hazardous waste sites on the NPL in various
stages.

                         Figure 1.1. Status of Sites on the NPL


                                     1518 NPL Sites

                                   Pending Study
                                        1.0%                 Study or Design
                                                                  16.0%




     Construction Complete                                            Construction Underway
             59.0%                                                             24.0%




                             Source: CERCLIS Database June 24, 2004




States Have Hazardous Waste Cleanup Programs

States are actively involved in EPA’s decision making process for NPL sites, although
EPA is overseeing or undertaking remedial actions for the majority of the sites on the
NPL. EPA’s Comprehensive Environmental Response, Compensation, and Liability
Information System (CERCLIS) shows that 28 States have assumed a lead regulatory
role in overseeing or conducting remedial actions at 143 of the 1,258 sites (or
approximately 10 percent) classified as “Construction Underway” or “Construction
Complete.” Although the States’ remediation activities have been limited, CERCLIS
shows that 47 States have conducted many of the initial site assessment activities for
their respective NPL sites.

In addition to State-lead NPL activities, States have also assumed responsibility for
hazardous waste sites that have been included in CERCLIS but have not been added to
the NPL. Over the years, EPA has informally deferred approximately 1,700 sites
identified in CERCLIS as “Other Cleanup Activity” sites. These sites are considered
by EPA to be high priority sites because they received preliminary Hazard Ranking
System scores of at least 28.5. Although EPA has no further Federal actions planned
for these sites, they remain on EPA’s “watch list” pending subsequent action by the
States.


                                        2
                   According to studies conducted by the Environmental Law Institute since 1989 under
                   an EPA cooperative agreement, all 50 States have hazardous waste site cleanup
                   programs. These studies provide general descriptions of their statutes, program
                   organization, staffing, funding, expenditures, cleanup policies, enforcement provisions,
                   and cleanup activities. However, the studies do not evaluate the effectiveness and
                   capacities of the cleanup programs. The most recent study – An Analysis of State
                   Superfund Programs, 50-State Study, 2001 Update – reported that, as of the end of
                   fiscal 2000, the States had completed cleanups at about 29,000 non-NPL sites since
                   the start of their programs. The report also disclosed that the States were overseeing
                   or conducting cleanups at approximately 16,000 sites during fiscal 2000.

                   Superfund Program Faces Future Challenges

                   The Superfund program faces significant challenges in paying for the remediation of
                   current and future sites on the NPL. The taxing authority generating the majority of
                   revenues for the Superfund Trust Fund expired in 1995, which has resulted in a steady
                   decrease in appropriations supporting the Superfund program. According to the
                   General Accounting Office1 (GAO), Superfund program appropriations have
                   decreased from fiscal 1995 to 2004, in constant 2003 dollars, from approximately $1.5
                   billion to $1.2 billion (or a reduction of 20 percent), respectively.

                   As a result of the funding challenges, Congress requested that Resources for the Future
                   conduct an independent study on the future costs of the Superfund program. The
                   report on the study2 estimates that costs to implement the Superfund program will be at
                   least $14 billion for fiscal 2000 through fiscal 2009. The report also includes
                   recommendations intended to help formulate a clear mission for the program and
                   improve its effectiveness and efficiency.

                   EPA developed an action plan to respond to the recommendations in the Resources for
                   the Future report. As part of the action plan, EPA established a committee of experts –
                   the Superfund Subcommittee to the National Advisory Council for Environmental
                   Policy and Technology – that was asked to address: (1) the role and purpose of the
                   NPL; (2) how to address potentially complex and expensive contaminated sediment
                   and mining sites; and (3) how to measure Superfund program progress. The
                   subcommittee’s final report was issued to EPA in April 2004.

                   As a complement to the Superfund Subcommittee’s work, EPA initiated an internal
                   study in November 2003 to identify opportunities to more efficiently deploy Superfund


         1
          Superfund Program: Updated Appropriations and Expenditure Data, GAO-04-475R, February 18, 2004.

         2
          Probst, Katherine N. and Konisky, David M., Superfund’s Future: What Will It Cost? A Report to
Congress, Resources for the Future (Washington, D.C.:2001).

                                                             3
         program resources within the Agency. An important goal of the study was to identify
         how more Superfund resources can be dedicated to the construction of remedial
         actions. EPA issued a report on the study results in April 2004, SUPERFUND:
         Building on the Past, Looking to the Future. The report concluded that although the
         Superfund program has made and continues to make significant progress in remediating
         Superfund sites, the program can be further improved. The report also noted that the
         States have played a vital role in the Superfund program and have had a major role in
         setting cleanup standards for Superfund sites. The report made 102 recommendations
         for improving the effectiveness of the Superfund program, including recommendations
         to reexamine: (1) existing EPA policies relating to State-lead remedial actions to
         determine whether the policy includes areas such as capability, past experience, cost,
         and timeliness; and (2) existing State-lead sites to determine whether the remediation is
         being conducted timely and cost efficiently.

Scope and Methodology

         We began our review April 17, 2003, and completed field work March 10, 2004. To
         answer our evaluation questions, we judgmentally selected hazardous waste site
         cleanup programs for five States: New Jersey, Michigan, Pennsylvania, Kansas, and
         Washington. We based our sample selection on State information reported in the
         50-State studies conducted by the Environmental Law Institute from 1989 through
         2001 and criteria suggested by the Association of States and Territorial Solid Waste
         Management Officials. The evaluation scope covered site identification, assessment,
         prioritization, and remedial processes and activities for NPL caliber-sites, generally for
         the period October 2000 through March 2003. We defined NPL-caliber sites as
         hazardous waste sites that were not included on the NPL but appeared to be eligible
         based on site characterization data. The scope also included long-term response
         planning processes and activities for NPL sites scheduled for turnover to the five States
         during the 10-year period ending December 2013.

         We interviewed officials in EPA’s Office of Superfund Remediation and Technology
         Innovation, which is within the Office of Solid Waste and Emergency Response
         (OSWER). We also interviewed officials in the hazardous waste site cleanup programs
         for each of the five States. Our evaluation included a review of EPA and State
         hazardous waste program records and other evaluation procedures.

         This evaluation was performed in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. Appendix A provides further
         details on the scope and methodology.




                                             4
                                  Chapter 2
              States Need to Address Backlogs
              in Site Assessments and Scoring
          The five States reviewed – New Jersey, Michigan, Pennsylvania, Kansas, and
          Washington – have all implemented processes for identifying, assessing, investigating,
          and prioritizing hazardous waste sites that are similar to EPA’s remedial process for the
          Superfund program. However, three of the States had a combined backlog of at least
          423 sites that were awaiting site assessment, and one of these States may also have a
          backlog in scoring sites. Although one of the remaining two States also appeared to
          have a backlog, there was insufficient data for determining whether a backlog exists.
          According to State officials, the backlogs were primarily attributable to limitations in
          Federal and State funding. Until these backlogs are eliminated, the States cannot
          assure that sites posing the greatest threat to human health and the environment are
          being addressed promptly, and the backlog may limit the States’ capacity to address
          future hazardous waste sites, including sites on the NPL.

Processes Used by States and Superfund Are Similar

          NCP requirements in 40 Code of Federal Regulations (CFR) Part 300 set forth the
          processes and regulations for conducting Superfund remedial activities. In accordance
          with the NCP, EPA has established processes for site discovery, preliminary
          assessment, site inspection, and relative risk scoring, to evaluate the potential for a
          release of hazardous substances from a site.

          New Jersey, Michigan, Pennsylvania, Kansas, and Washington have all implemented
          processes for identifying, assessing, investigating, and prioritizing hazardous waste sites
          which are similar to EPA’s processes for the Superfund program. These five States are
          addressing over 5,400 hazardous waste sites under their State cleanup programs,
          including over 1,700 sites that could be considered NPL-caliber sites. Appendix B
          provides additional details on the States’ cleanup programs.

          Identification

          All five States reviewed have hazardous waste site identification and response
          processes that place priority on addressing sites posing immediate threats to human
          health and the environment. Further, a judgmental sample of notifications and response
          actions at 14 sites showed that the States were following these procedures and taking
          prompt and appropriate response actions. The States generally used NCP
          requirements. All States maintain a 24-hour telephone hotline for receiving public

                                              5
notification of hazardous conditions, and have procedures in place for initial response
and evaluation of reported hazardous waste releases, spills, and other issues. In
addition, States identified sites through other means, such as real property transactions;
formal citizen complaints; and referrals from other State and Federal agencies, including
EPA. In conjunction with their site identification processes, each of the five States
maintain databases to manage and track sites from notification through disposition.

Assessment and Investigation

In Superfund, the preliminary assessment process is used to determine what steps, if
any, are needed to occur next at a site. For those sites requiring further investigation, a
site inspection is generally performed. This involves collection of field data to confirm
or deny the presence of contamination and to further characterize it. All five States
conduct site assessments and investigations to determine the need for further
investigation and remediation. Similar to procedures used by the Superfund program,
the States’ procedures generally were designed to identify those sites that posed the
greatest threats, determine the need for removal action, and obtain the necessary data
to prioritize and take further action.

Site assessment and investigation activities conducted by New Jersey, Michigan, and
Washington were partially funded through cooperative agreements with EPA. The
majority of their activities, however, were supported by State funding. In contrast, site
assessment and investigation activities conducted by Kansas was supported primarily
by Federal funding, while such activities in Pennsylvania were supported exclusively by
State funding.

We found that the five States conducted site assessments at more than 390 higher
priority State and Federal sites during the period October 2000 to March 2003. Our
evaluation of a judgmental sample for 23 sites, which consisted of a mix of State- and
responsible party-lead sites, showed that the States’ procedures were followed and
appropriate decisions were made for further actions.

Prioritization

The Hazardous Ranking System is the primary screening and relative risk scoring
system used by EPA to determine whether to place uncontrolled hazardous waste sites
on the NPL. This system is a numerical-based system that uses information obtained
from the preliminary assessment and site inspection to assess the relative potential of
sites to pose a threat to human health and the environment. This approach assigns
numerical values to factors that relate to risk based conditions at the site. One of the
States (Pennsylvania) used EPA’s Hazardous Ranking System to prioritize sites for
State-funded remedial actions, and the other four used similar scoring systems that we


                                     6
          considered generally equivalent to EPA’s scoring system. Further details on the States’
          scoring systems are in Appendix C.

Backlogs Existed in Assessing Sites

          Although the States followed their procedures when conducting site assessments and
          investigations of new hazardous waste sites, at least three of the States had backlogs in
          completing site assessments. Additionally one of these three States may have a backlog
          in scoring sites to assist in assigning remediation priorities. There was insufficient data
          for determining whether backlogs exist for one other State, although it appeared to have
          a backlog. The backlog for the three States we could measure totaled 423 sites, as
          shown in Table 2.1.

                           Table 2.1. State Backlogs for Assessment
                                                   Sites Pending
                            State                  Assessment
                            New Jersey                    52

                            Kansas                        92

                            Washington                  279


                              Total                     423




          Also, Pennsylvania had a backlog in completing site assessments for about 90 sites, but
          we could not arrive at a specific figure due to incomplete inventory data. New Jersey
          officials indicated the State also had a scoring backlog, but again there were insufficient
          data to make a determination.

          According to New Jersey, Kansas, and Washington program officials, the backlogs
          were primarily attributable to limitations in Federal and State funding. Additional details
          on the States’ backlogs follow.

          •   New Jersey’s backlog of 52 sites has been in the State’s hazardous sites inventory
              since at least 1999. These sites have been classified as “immediate environmental
              concerns,” which New Jersey assigns to sites that pose either acute threats to
              human health and the environment or threats to drinking water sources. According
              to New Jersey officials, these sites have been remediated to eliminate actual
              exposure to human health; however, assessments are necessary to identify the
              sources of the ground water contamination. In 1999, the State made a decision to
              designate 150 sites from its immediate environmental concerns inventory for
              assessment under its cooperative agreement with EPA. The State has since

                                               7
    completed 47 assessments and begun another 51; assessment activities have not
    been started on the remaining 52 sites primarily due to limited annual funding by
    EPA. The cooperative agreement with EPA has decreased from $1.9 million in
    fiscal 2000 to less than $1.0 million in fiscal 2003. New Jersey officials said the
    State also has a backlog in scoring sites for State-funded remedial actions, due to
    funding limitations, as well as plans to develop a new site scoring system, but there
    was insufficient data to quantify.

•   Kansas has a backlog of 92 sites pending assessment. Some of these sites have
    been in the State’s inventory for more than 5 years. According to State officials,
    the State’s capacity to conduct assessments is limited by the annual funding of
    approximately $517,000 provided by EPA under a cooperative agreement, and
    State funding limitations.

•   Washington has a backlog of 279 sites pending assessment. Some of the sites
    have been in the State’s inventory since at least 1990. According to program
    officials, the overall backlog is due to a combination of factors, including: (i) the
    ability of local governments to obtain assessment grants; (ii) higher risk sites taking
    priority over the many low risk sites; and (iii) the lack of State funding/staffing to
    address non-grant funded local government sites. Since the majority of assessment
    activities in Washington, unlike the other States, are performed by county health
    departments under State-awarded site assessment grants, the county health
    departments’ capacity to move sites through the assessment process is contingent
    on State funding. Total funding for these site assessment grants has averaged $2.4
    million per year since 2000.

•   Pennsylvania program officials indicated that they have backlogs in completing site
    assessments for approximately 90 sites in one of its six regions, but we were unable
    to confirm this backlog and arrive at a specific figure statewide because of
    incomplete site inventory data.

•   Michigan does not have a backlog in conducting site assessments and scoring.

The scope of our evaluation did not include an analysis of funding, staffing, and
workload for the States’ cleanup programs. As a result, we were unable to verify
whether funding limitations are the primary cause for the backlogs. We note that other
potential factors for the backlogs may include non-optimal management of site
assessment processes, diversion of staff resources to other priorities, or non-optimal
management of available funds.




                                    8
Conclusion

         The States have established procedures for identifying, assessing, investigating, and
         scoring sites to assist in the prioritization of sites for remediation that are similar to
         processes used by the Superfund program. However, at least three States have a
         backlog in conducting site assessments and one also may have a backlog in site scoring.
         Until these backlogs are eliminated, the States cannot assure that sites posing the
         greatest threat to human health and the environment are being addressed promptly, and
         the backlog may limit the States’ capacity to address future hazardous waste sites,
         including sites on the NPL.

Recommendation

         We recommend that the Acting Assistant Administrator for Solid Waste and
         Emergency Response:

         2-1.    Work with the States to determine the degree to which funding or other
                 management issues are factors for the backlogs in completing site assessments
                 and scoring sites for remediation and/or NPL referral.

Agency and State Comments and OIG Evaluation

         OSWER’s Comments and OIG Evaluation

         OSWER agreed with the recommendation and commented that while the five States
         reviewed have all implemented processes for identifying, assessing, investigating, and
         prioritizing hazardous waste sites that are similar to EPA’s remedial process for the
         Superfund program, they are concerned with the backlogs in sites requiring assessment
         and scoring. Since all five of the States studied have backlogs, OSWER agreed to
         work with States to determine the key reasons for the backlogs.

         Although OSWER agreed to implement the recommendation, OSWER, in its response
         to our final report, needs to provide a milestone for completion of the planned action,
         for resolution of the recommendation.

         New Jersey’s Comments and OIG Evaluation

         New Jersey generally agreed with the findings and recommendation. However, the
         State provided clarifying comments in regards to its backlog of site assessments and
         also commented that it seems far reaching to suggest that the backlog of site assessment
         cases may limit the State’s ability to address NPL sites. The State also said that if this
         limitation to address NPL sites is attributed to a statement by some State official then it

                                             9
should be attributed to that official. Additionally, New Jersey said that its future ability
to respond at NPL sites is not affected by the cases awaiting site assessments.

We have modified the report to address the State’s comments. However, we do not
believe that it is far reaching to conclude that the backlogs may limit the State’s future
ability to address NPL sites. In our opinion, the backlogs represent a potential
limitation in the State’s future capability to address NPL and other hazardous waste
sites. This potential exists because these backlogs may include sites that pose
significant threats to human health and the environment. Therefore, the State’s
inventory of sites requiring remediation may increase as the backlog of site assessments
are addressed. This inventory increase may limit the State’s capacity to address future
NPL and other hazardous waste sites.

Michigan’s Comments

Michigan did not specifically comment on the findings, but agreed with the
recommendation.

Pennsylvania’s Comments and OIG Evaluation

Pennsylvania generally agreed with the findings and did not comment on the
recommendation. However, the State requested additional clarification be provided in
the final report in regards to its backlog of approximately 90 sites. The State said that
these sites are part of the Region 3/State work share inventory, which is maintained by
the Region as part of its database, and is not a reflection of State inventory data.

We do not agree that the backlog of 90 sites represents sites included in the Region
3/State work share inventory. Rather, the sites represent No Federal Remedial Action
Planned sites, archived in CERCLIS, and returned to the State for further evaluation.
As discussed in the report, we were unable to confirm this backlog because of
incomplete site inventory data provided by the State.

Kansas’ Comments and OIG Evaluation

Kansas generally agreed with the findings and recommendation, but commented that the
backlog of site assessments represents sites that are believed to be low priority which
remain on the list of sites to be assessed. Kansas also said that the statement “States
cannot assure sites posing the greatest threat to human health and the environment are
being addressed ...” is not accurate. Currently, Kansas believes that all sites with
known human health and environmental risks are being addressed by either the State or
EPA Region 7. However, the State said that this may not be the case in the future if
there is a continual decrease in State and Federal funding.


                                    10
Additionally, Kansas commented that the statement regarding that over 50 percent of
the sites have been in the inventory for more than 5 years is misleading. Sites that have
been in the system for an extended period of time have been screened and deemed as
low priority, low risk sites will be assessed once higher priority sites have been
assessed. The screening takes into account the geographical location of the site (i.e.,
aquifer, water use, etc.), potential receptors, known contaminant levels, type of
contaminant, etc. These low priority sites do not represent a known risk to human
health and/or the environment. Sites posing the greatest threat to human health and the
environment are being assessed. However, if after assessment a site is determined to
be an orphan site, there may not be enough Federal or State funding to address the
problem.

We acknowledge that Kansas believes that its site assessment backlog represents
lower risk sites. However, this risk determination has been made based on the State’s
initial screening process. This initial screening process is designed to assess immediate
threats and determine the need for further investigation. In contrast, the preliminary
assessment and site investigation are the processes where releases or threatened
releases are confirmed or ruled out; contaminants are characterized; exposure
pathways are considered; and the potential threat to human health and the environment
are evaluated. Therefore, until sites are fully assessed, the State cannot be assured of
the full risk to human health and the environment.

Washington’s Comments and OIG Evaluation

Washington generally agreed with the findings, but did not comment on the
recommendation. The State commented that it is important to recognize that the
backlog of unaddressed sites represents a dynamic process, with new sites being
continually added at the same time other sites are removed due to assessments being
completed. Consequently, there will generally always be a backlog, unless limitations in
funding precludes further “site discovery” to continue to add new sites to the list.

The State also commented that, while it is true these “backlogged” sites have not been
formally ranked, they have been subjected to an “initial investigation.” This includes a
records review, site inspection, and, usually, limited sampling. Any imminent risks are
identified and addressed as part of this process, and higher risk sites are prioritized for
ranking. Thus, this backlog represents lower risk sites, and the State does not believe
the backlog impedes its ability to take on higher risk sites if one is identified.

We agree that addressing backlogs is a dynamic process as a result of the continuous
discovery of new sites. We acknowledge that the backlog of sites have had an initial
investigation that includes a review for imminent risks. We also acknowledge that the
State has a response process in place for addressing sites posing imminent risks to
human health and the environment. However, the initial investigation is designed to

                                    11
assess immediate threats and determine the need for further investigation. The State’s
site hazard assessment is the process where releases or threatened releases are
confirmed or ruled out and the potential threat to human health and the environment are
evaluated. Until the site hazard assessments are completed, the State cannot be
assured of the full risk to human health and the environment.




                                  12
                                Chapter 3
    States Apply Remedy Processes That Are More
          Flexible Than Superfund’s Process
         The five States reviewed have developed cleanup standards that are based on risk and
         sound science and are intended to be protective of human health and the environment.
         Additionally, processes used by the States to characterize contamination, assess risks,
         and make remedy decisions generally incorporate sound scientific analysis and are
         similar, but not equivalent, to EPA’s remedy decision process for Superfund. The
         States generally use a streamlined decision process that does not include the Superfund
         equivalent baseline risk assessments established by EPA. However, we found that the
         States’ decision processes for NPL-caliber sites generally provide remedies that are
         designed to be protective to human health and the environment. Therefore, if EPA
         wants the States to assume a larger role in addressing NPL sites, it should consider
         giving the States greater flexibility in their remedy selection processes.

Superfund Cleanup Goals and Remedy Selection Process

         CERCLA, as amended by the Superfund Amendments and Reauthorization Act,
         requires that EPA coordinate with the States on remedial actions for contaminated sites
         and encourages States to participate in remedial actions. However, the Act does not
         establish specific cleanup standards for contaminated soils, ground water, surface
         water, and sediments. Instead, CERCLA specifies that cleanup actions must attain
         compliance with applicable, or relevant and appropriate requirements (ARARs) to
         ensure protection of human health and the environment.

         In the absence of ARARs, EPA has set remediation goals for both carcinogens and
         non-carcinogens. For carcinogens, EPA considers cleanup levels to be protective of
         human health when the final cleanup levels fall within a lifetime cancer risk range of
         1x10-6 (one in a million) to 1x10-4 (one in ten thousand) for contaminated site related
         exposures. EPA considers cleanup levels for non-carcinogens to be protective of
         human health when the final cleanup levels achieve a Hazard Index of no more than 1.
         The Hazard Index is defined as the ratio of the exposure level to the referenced,
         acceptable daily long-term dose from exposure to contaminants at the site. Therefore,
         a Hazard Index that exceeds 1 increases the potential for adverse health effects from
         non-carcinogens at the site.

         EPA established a remedy selection process for the Superfund program that includes a
         Remedial Investigation/Feasibility Study, a Proposed Plan, and a Record of Decision.
         The Remedial Investigation/Feasibility Study includes performance of a baseline risk

                                           13
          assessment to assess the current and potential future human and ecological risks posed
          by the contamination. The Proposed Plan presents the preferred remedy to the public
          for comments, and the Record of Decision documents the remedy selection decision.
          States are not required to follow Superfund’s remedy selection process for sites that
          are addressed under their own hazardous waste cleanup programs.

Cleanup Standards Protective of Human Health and Being Followed

          All five States have developed cleanup standards and/or criteria for NPL-caliber sites
          that are based on risk and sound science and are intended to provide long-term
          protection to human health and the environment. Furthermore, the cleanup levels apply
          to soil, ground water, and surface water, and are consistent with CERCLA remediation
          goals.

          State regulations are the primary source of cleanup criteria and standards for the five
          States’ cleanup programs for NPL-caliber sites. Many Federal regulations have been
          adopted by reference in the States’ regulations. Where Federal cleanup standards
          have not been established, the States have developed their own cleanup standards
          and/or criteria based on statutory requirements and other ARARs. Table 3.1.
          summarizes the general criteria used by all States to develop their cleanup standards,
          and Appendix B provides additional details by State.

                   Table 3.1. General Criteria Used by States to Develop Cleanup Standards
           • Carcinogenic Risk Range Between 10-6 to 10-4        • Maximum Cleanup Levels/Goals
           • Non-Carcinogenic Risk of 1 or <1                  • Aquifer Use
           • Land Use                                          • Water Quality Criteria
           • Background Levels                                 • State and Federal Statutory
           • Chemical Specific Health Based Criteria           • Environmental Impact Data



          The process for setting cleanup standards and/or criteria varied among the five States.
          While Michigan, Kansas, and Pennsylvania used lookup tables and optional baseline
          risk assessments for determining cleanup levels, New Jersey and Washington used
          lookup tables and generic risk-based formulas. Despite this variation, the States’ basis
          for developing cleanup levels for soil, ground water, and surface water is largely
          derived from EPA toxicological information, exposure pathway models, exposure
          assumptions, and human health risk calculations. These processes have resulted in
          State cleanup standards and/or criteria that are based on sound scientific analysis and
          are consistent with EPA’s remediation goals for carcinogens and non-carcinogens, as
          well as other standards. Further, each State applies the standards and/or criteria
          consistently to their cleanup programs that address NPL-caliber sites.




                                                14
          Although EPA has not established national cleanup standards for contaminated
          sediments, we found that Washington, New Jersey, and Michigan have proactively
          developed their own standards or guidance. Specifically:

          •   Washington has developed sediment management standards. The objective of
              these standards is to eliminate adverse effects on biological resources and human
              health from contaminated sediments. These standards are established on a site
              specific basis using risk-based criteria and apply to marine, low salinity, and
              freshwater sediments. According to State officials, the cleanup standards have
              been applied to 134 hazardous waste sites with contaminated sediments.

          •   New Jersey has established a formal process for assessing risks posed by
              contaminated sediments. This guidance – Guidance for Sediment Quality
              Evaluations – is primarily based on EPA ecological risk assessment guidance and
              criteria. The document includes guidelines for developing sampling plans and
              screening values for conducting ecological risk assessments.

          •   Michigan has established guidance that serves as a mechanism for development of
              site specific sediment cleanup criteria. The objective of the criteria is to provide
              protection of aquatic life, wildlife, and human health. A phased approach is used to
              determine the potential for contaminated sediments to exceed water quality
              standards, and consider appropriate response actions based on use impairments.
              The guidance was developed from EPA Ecological Screening Levels and other
              EPA guidance documents.

State and Superfund Remedy Processes Not Equivalent

          The processes used by the five States to characterize contamination, assess human and
          environmental risks, and make remedy decisions are generally based on sound scientific
          analysis and are similar, but not equivalent, to EPA’s remedy decision process for the
          Superfund program. However, the processes generally provide remedies that are
          designed to be protective to human health and the environment. NCP requirements in
          40 CFR Part 300 set forth the process and regulations for conducting Superfund
          cleanup actions, and sets forth nine criteria:

          •   Protection to human health and the environment
          •   ARARs
          •   Long-term effectiveness and permanence
          •   Toxicity, mobility, or volume reduction through treatment
          •   Short-term effectiveness
          •   Implementability
          •   Cost
          •   State acceptance

                                            15
•   Community acceptance

Our review of State laws, regulations, and written guidance covering remedy selection,
and interviews of State officials, identified that each State’s remedy decision process for
NPL-caliber sites are similar to the Superfund process. Their processes generally
include the application of scientific methods to characterize the type and extent of
contamination, as well as application of the nine criteria specified by the NCP (although
Pennsylvania and New Jersey, while including long-term effectiveness, did not include
permanence).

Although the Superfund program requires that each site receive a baseline risk
assessment to evaluate the potential threat to human health and the environment, the
States typically do not. State officials expressed concern that the baseline risk
assessments were time-consuming and not needed for the less complex NPL-caliber
sites. Instead, the States generally compare site characterization data with their risk-
based cleanup standards as an alternative to completion of a risk assessment.
According to State officials, the benefits received from using risk-based cleanup
standards in place of baseline risk assessments include streamlined decision-making,
consistency in cleanup levels among similar sites, and flexibility in decision making by
providing tabulated risk-based cleanup standards with the opportunity to develop site-
specific goals.

We found that the States’ decision processes were generally followed and decisions
were generally based on risk and sound scientific analysis. We reviewed records
supporting decisions made by the five States for 20 judgmentally selected NPL-caliber
sites, which consisted of a mix of State- and responsible party-lead sites. Our review
showed that the States’ decision processes were followed and the selected remedies
were designed to protect human health and the environment for all but one of the sites.
The supporting records showed that: (1) contamination was characterized; (2) human
health and environmental risks were assessed; (3) remedial alternatives were identified
and analyzed; (4) public comments on proposed remedies were solicited and
considered; and (5) remedies were selected based on EPA criteria as appropriate.
Also, the review showed that cleanup levels met EPA’s remediation goals for
carcinogens and non-carcinogens.

We were unable to verify whether the selected remedy for one of five sites included in
our sample for Pennsylvania was protective to human health and the environment.
Contamination at the site was not completely characterized and the decision was not
based on a formal evaluation of remedial alternatives. According to Pennsylvania
program officials, the original remedy selected for the site was modified due to State
budget constraints, which resulted in selection of a more cost effective remedy. The
original remedy is being retained as a contingency. Our evaluation results do not
indicate that a systemic weakness exists in Pennsylvania’s remedy decision process.

                                   16
         For the one instance, we issued a memorandum to the Region 3 Administrator
         describing our concerns and requesting that the Region take corrective action. The
         memorandum is included in this report as Appendix D.

Conclusion

         All five States reviewed have implemented cleanup programs for NPL-caliber sites that
         are generally similar to EPA’s Superfund program. However, we noted that the States
         typically do not require baseline risk assessments as part of their remedy selection
         process and instead compare site characterization data with their risk-based cleanup
         standards. Providing the States with flexibility in the use of baseline risk assessments is
         an important facilitating factor in increasing State-lead remediation activities in the
         Superfund program.

Recommendation

         If EPA desires States to assume greater responsibilities in Superfund remedy processes
         or actions, we recommend that the Acting Assistant Administrator for Solid Waste and
         Emergency Response:

         3-1.    Identify ways to streamline the Superfund remediation process and provide
                 States with flexibility in the application of baseline risk assessments where
                 possible and as appropriate.

Agency and State Comments and OIG Evaluation

         OSWER Comments and OIG Evaluation

         OSWER agreed with the recommendation and noted that the observations in the draft
         report merit additional evaluation. OSWER will be examining State contributions to the
         Federal Superfund program in the coming year, particularly as it relates to State-lead
         cleanups, and will refer to the OIG findings as the evaluation is developed. It is the
         Agency’s intent to share the lessons learned with the States and other interested parties.

         OSWER’s planned actions appear to meet the intent of the recommendation. However,
         in its response to our final report, OSWER will need to provide the specific actions it
         plans to take as well as milestones for completing the actions for resolution of the
         recommendation.




                                             17
New Jersey’s Comments and OIG Evaluation

New Jersey generally agreed with the findings and recommendation. However, the
State commented that throughout the report, the use of the phrase “flexible remedy
decision processes….” or the word “flexible” is used to describe the State’s process.
It is unclear what this means, and the use of the word “flexible” implies that decisions
are not consistently applied. Please consider another word that doesn’t imply
inconsistency.

The use of the word “flexible” in describing the remedy decision processes throughout
the report was not intended to imply that the States are not consistently applying their
decisions as indicated by New Jersey. We have used the word to communicate a need
to consider processes outside of the prescriptive bounds of Superfund.

Michigan’s Comments and OIG Evaluation

Michigan generally agreed with the findings and provided comments clarifying its
approach to sediment criteria and permanence. Additionally, the State suggested a
stronger recommendation to look at updating the Superfund program to allow a similar
delegation authority similar to those found in the hazardous waste and tank programs.
Michigan supported this suggestion by stating that States have shown that they are
capable of handling sites as large and/or complex as Superfund sites.

We have modified the report to address the State’s comments pertaining to sediment
criteria and permanence. However, we have no basis to make the suggested
recommendation because the scope of our review did not address delegation of
Superfund authority to the States.

Pennsylvania’s Comments and OIG Evaluation

Pennsylvania generally agreed with the findings. However, the State requested that the
chapter and the memo in Appendix D be revised to include additional language
regarding protectiveness in the discussion of the remedy selection for the ADSCO site.
The State said that the original remedy selected for the site was re-evaluated due to
cost effectiveness brought on by State budget restraints. The re-evaluation resulted in a
modified remedy considering cost effectiveness with additional monitoring to assure
protectiveness of human health and the environment, with the original remedy being
retained as a contingency if the modified remedy proved not to be protective.
Additionally, the State commented that the public notification process was satisfied
according to State requirements due to the modified remedy being one of the
alternatives considered throughout the remedy selection process.

                                   18
We modified the chapter to disclose that the original remedy was modified because of
State budget restraints. We don’t believe that the State satisfied its public notification
requirements. The State presented a remedy to the public for comment that included
the installation of a synthetic cap on the fill areas. Furthermore, the State’s Statement of
Decision for the site, identified the cap as the main component of the selected
alternative. Therefore, the cap is critical to the success of the combined remedial action
alternatives to provide protection of human health and the environment. Although the
remedy was modified to make the cap a contingent component, the modification was
not presented to the public for comment.

Kansas’ Comments

Kansas did not provide specific comments on the findings and recommendations.

Washington’s Comments

Washington did not provide specific comments on the findings and recommendations.




                                    19
20
                                 Chapter 4
     States May Not Be Able to Support Impending
     Operation and Maintenance Responsibilities
          Over the next 10 years, States will be assuming additional operation and maintenance
          (O&M) responsibilities for long-term response actions (LTRAs) at many NPL sites.
          However, four of the five States reviewed may not have the resources to undertake
          these future obligations because of declining budgets. Additionally, the States are
          concerned that they may be required to assume O&M responsibilities for ineffective
          and/or inefficiently performing LTRAs. They are concerned about the performance of
          the LTRAs because EPA may not conduct optimization studies on all of the systems.
          Consequently, States may not be able to maintain the integrity of remedies and ensure
          protection to human health and the environment. Further, inadequate LTRAs can result
          in the States incurring unanticipated costs that could impact other cleanup priorities.

States Will Assume O&M Responsibilities

          Under the NCP, States are generally required to assume responsibility for 100 percent
          of the O&M costs for Federal-funded remedial actions at NPL sites after the remedies
          become operational and functional. However, the NCP provides an exception for
          LTRAs involving treatment or other measures to restore ground or surface water quality
          to a level that ensures protection to human health and the environment. For these
          LTRAs, States are not required to assume complete responsibility for O&M until the
          remedies have been operational and functional for a period of 10 years. If cleanup
          goals have not been achieved after the 10 years, the remedy becomes the sole
          responsibility of the State.

          EPA contractors have estimated the average annual site operating costs of Federal-
          funded LTRAs for contaminated ground water sites at $570,000. This was cited in
          prior EPA OIG Report No. 2003-P-000006, Improving Nationwide Effectiveness
          of Pump-and-Treat Remedies Required Sustained and Focused Action to Realize
          Benefits (most LTRAs are pump-and-treat systems). Many LTRA systems are
          estimated to operate for more than 30 years, which could result in significant costs to
          the States in the O&M period.

          Since 1988, EPA has turned over LTRAs at NPL sites to the States of California, New
          York, Arkansas, New Hampshire, and Kentucky for O&M. Over the next 30 years,
          these States and others will be assuming O&M responsibility for an additional 82
          LTRA sites. Each of the five States in our evaluation will be assuming O&M
          responsibilities for one or more LTRA sites over the next 10 years. As shown in Table

                                             21
          4.1, the five States in our review will be assuming responsibility for a total of 24 of the
          remaining 82 LTRA sites:

                                                               Table 4.1. State Assumption of LTRA Sites
              Year                                 New Jersey         Michigan       Pennsylvania              Kansas          Washington   Total

              2004                                                        2                  1                                               3

              2005                                       1                                   1                                          1    3

              2006

              2007                                       1                                   1                                               2

              2008                                                                           2                                               2

              2009                                       1                                                                                   1

              2010                                       1                1                  1                                               3

              2011                                       1                1                  2                                               4

              2012                                       2                1                                       1                          4

              2013                                                                           1                    1                          2

              Total                                      7                5                  9                    2                     1    24




States May Not Be Prepared to Assume O&M Responsibilities

          The five States will realize a substantial increase in funding needs with the assumption of
          O&M responsibilities at these LTRA sites. As illustrated in Figure 4.1, the combined
          annual O&M costs for the five States’ LTRAs are estimated to increase (in current year
          dollars) from approximately $520,000 in 2004 to over $15.3 million in 2013. See
          Appendix E for listing of sites and their specific costs.
                                                   Figure 4.1. O&M Funding Projections for NPL LTRA Sites

                                                               Projected State LTRA O&M Costs
                                                                                     (24 Sites)
                                              $20,000
                 Funding Need (in millions)




                                              $15,000                                                                  $14.6
                                                                                                                                $15.3


                                                                                                               $11.7
                                              $10,000
                                                                                                        $7.3
                                              $5,000
                                                                                                 $4.1
                                                                              $2.9    $3.1
                                                        $0.5   $1.5    $1.8
                                                  $0
                                                        2004 2005 2006 2007 2008 2009 2010 2011 2012 2013
                                                                                     Fiscal Year
                                                               Source: Data Obtained from EPA RSE Region Surveys


                                                                              22
         States may not be prepared to assume additional O&M responsibilities resulting from
         the assumption of these LTRA sites. Officials from Pennsylvania, Kansas, Michigan,
         and Washington expressed concerns that their States may not have the resources to
         undertake these future obligations because of increasing workloads and declining
         budgets. Michigan program officials told us that the State has been evaluating future
         O&M financial obligations for LTRA sites and intends to continue to work to meet
         those obligations. New Jersey program officials said site specific funding for long-term
         O&M can be set up through the State’s Hazardous Discharge Bond Fund.
         Additionally, in 2003, the State increased revenues from the corporate business tax.
         According to New Jersey program officials, funding of future O&M obligations seem
         secure for planning purposes, based on this increase.

         In addition to the financial concerns, the five States are concerned that they may be
         required to assume O&M responsibilities for ineffective and/or inefficiently performing
         LTRAs. These concerns have been confirmed through OSWER’s Optimization
         Initiative. The first 20 optimization studies identified a variety of deficiencies and
         resulted in over 200 recommendations intended to improve the overall efficiency and
         effectiveness of the systems. Currently, EPA has completed optimization studies on 8
         of the 24 LTRA sites (33 percent) scheduled to be turned over to the five States over
         the next 10 years (3 in New Jersey, 2 in Michigan, 2 in Pennsylvania, and 1 in
         Washington). However, EPA has not scheduled studies for the remaining 16 (see
         Appendix E). Without the benefit of optimization reviews, there is no assurance that
         States will take over effective and efficient LTRAs, and the States may be required to
         incur unanticipated costs to correct deficiencies.

         OSWER is in the process of preparing draft guidance that will provide expectations on
         the use of optimization studies, and an action plan that will specify the funding,
         timeframes, and priorities for performing additional optimization studies for Superfund
         financed LTRAs. However, we were unable to review the new guidance and action
         plan because they were still under development during our review.

Conclusion

         States have expressed concern over their financial capability to assume O&M
         responsibilities for LTRAs. Additionally, States have concerns about the effectiveness
         and efficiency of some of the LTRAs scheduled for turnover by EPA. If these issues
         are not resolved, the capacity of States to effectively perform O&M at LTRA sites and
         remediate other hazardous waste sites may be impacted. This could ultimately result in
         an increase in site referrals for the NPL, as well as a decrease in State capacity to
         participate in remedial activities at NPL sites. The development of funding and staffing
         scenarios to address State O&M obligations at LTRAs could better prepare States and

                                            23
         EPA to develop solutions for expected challenges. In part, completion of plans for
         conducting optimizations at Superfund LTRAs will assist in the development of accurate
         funding and staffing scenarios for State O&M obligations.

Recommendations

         Given that the States are required to assume O&M responsibilities at LTRA sites, we
         recommend that the Acting Assistant Administrator for Solid Waste and Emergency
         Response:

         4-1.    Work with the States to explore viable funding and staffing options to support
                 their O&M responsibilities at NPL LTRA sites.

         4-2.    Complete guidance on optimization of LTRAs at NPL sites to include an action
                 plan that establishes funding and a schedule.

Agency and State Comments and OIG Evaluation

         OSWER Comments and OIG Evaluation

         OSWER agreed with Recommendations 4-1 and 4-2. In response to
         Recommendation 4-1, OSWER said it will work with the States, through the Regions,
         to jointly assess the States’ O&M funding strategies and identify possible solutions.
         For Recommendation 4-2, OSWER stated it has developed an “Action Plan for
         Ground Water Remedy Optimization” that is intended to apply important lessons
         learned into the Superfund cleanup process. The plan, which is expected to be finalized
         by September 30, 2004, provides details on several activities, that will help foster
         routine optimization at LTRA sites. These activities include: (i) conducting additional
         optimization reviews at high priority, Fund-lead sites (at a rate of 5-8 sites per year); (ii)
         providing priority funding for the implementation of recommended changes; (iii)
         monitoring implementation progress in the Regions; (iv) developing appropriate
         guidance and training tools; (v) coordinating with State counterparts and responsible
         parties; and (vi) establishing a network of Regional Optimization Liaisons.

         In response to the final report, OSWER needs to provide specific milestones for
         actions planned and taken for resolution of Recommendations 4-1 and 4-2.

         New Jersey’s Comments and OIG Evaluation

         New Jersey generally agreed with the findings and recommendations. Additionally, the
         State suggested the OIG recommend that EPA support the State’s efforts to have the

                                              24
O&M funding changed to a 90/10 ratio for all O&M. New Jersey also commented
that although the State will be able to meet its obligations, it would rather use those
funds for obligations at other sites.

We have no basis for including New Jersey’s suggested recommendation because we
did not review the feasibility of making all O&M a 90/10 cost share.

Michigan’s Comments and OIG Evaluation

Michigan generally agreed with the findings and recommendations. Michigan
commented that the State has been evaluating the LTRA needs at its respective sites,
and intends to continue to work to meet those obligations. Additionally, Michigan
stated that it fully supports the efforts to conduct optimization studies and urges that the
report strongly recommend that these studies be conducted on a priority basis at sites
where transfer of responsibility is imminent, or where project managers have raised
concerns about the effectiveness of the system. The State also said that
Recommendation 4-2 should suggest an aggressive time line for completion of the
guidance optimization of LTRAs.

We have modified the report to include a statement regarding the State’s LTRA
evaluation efforts. We did not revise Recommendation 4-2 as suggested by the State
because we have requested that OSWER provide a specific milestone for completing
its action plan.

Pennsylvania’s Comments

Pennsylvania did not provide specific comments on the findings and recommendations.

Kansas’ Comments and OIG Evaluation

Kansas generally agreed with the findings and recommendations. The State provided
clarification on its number of LTRA sites, and suggested an additional recommendation
for EPA to consider performing a system optimization study during the LTRA, and at a
minimum of: 1) for the 5-year review period, and 2) prior to the 10-year review.
Further, the State suggested these studies be performed jointly with the States.

Kansas also suggested that EPA develop training for their project managers to create a
philosophy of continuous system evaluation and optimization. Further, the State said
EPA should seek project managers with strong technical backgrounds in site
remediation and empower those managers to perform system evaluations as data is
generated.

                                    25
We have modified the report to include the State’s LTRA data. However, we did not
include the State’s suggestion of an additional recommendation in the report because
implementation of Recommendation 4-2 should ensure optimization studies are
conducted at LTRA sites before the sites are transferred to the States for O&M.
Additionally, we note that OSWER’s planned corrective actions include the
development of optimization training tools and coordination with the States and
responsible parties on optimization study activities.

Washington’s Comments

Washington did not provide specific comments on the findings and recommendations.




                                 26
                                                                                           Appendix A

                   Details on Scope and Methodology
To address our evaluation questions, we selected a judgmental sample of five States’ hazardous waste
site cleanup programs. We selected the cleanup programs for New Jersey, Michigan, Pennsylvania,
Kansas, and Washington. These States were selected because we sought to obtain a mix of States
based on geography, size of program, size of site inventories, and number of cleanup actions.
Additionally, we selected States with and without referrals to the NPL during 1998 through 2001. We
based our selection primarily on State information reported in the 50-State studies conducted by the
Environmental Law Institute from 1989 through 2001. Additionally, we interviewed Association of
States and Territorial Solid Waste Management Officials to obtain their views on the States’ hazardous
waste site cleanup programs and criteria for selecting States for our evaluation. We also reviewed prior
reports issued by EPA OIG and the GAO, although none were specific to the scope of our evaluation.

The evaluation generally covered management controls from October 2000 through March 2003. We
also reviewed relevant records maintained by these States before and after that period.

To gain an understanding of EPA’s Superfund processes and procedures, we interviewed officials from
OSWER’s Office of Superfund Remediation and Technology Innovation, and reviewed EPA
regulations and program records applicable to the Superfund program. Additionally, we reviewed data
in EPA’s CERCLIS database to determine State-lead activities at NPL sites. We did not validate any
of the data obtained from CERCLIS. Because EPA OIG Report No. 2002-P-00016 concluded that
over 40 percent of CERCLIS data on site actions reviewed was inaccurate or not adequately
supported, we used the CERCLIS information only to estimate State-lead remedial activities at NPL
sites.

We made site visits to each of the five States to evaluate their hazardous waste cleanup programs. We
conducted interviews with State hazardous waste cleanup program officials; and reviewed and obtained
pertinent data from the States. We compared and evaluated the States’ policies, processes and
procedures against Superfund requirements and procedures. Additionally, we performed file reviews
of selected NPL-caliber and other hazardous waste sites.

To evaluate States’ site identification, assessment, and prioritization processes, we :

•   Obtained listings of hazardous waste sites at each State, which showed site identifications,
    preliminary assessments, investigations, and priority scores.

•   Selected a judgmental sample for each State (minimum of three sites) to review each phase of the
    identification and assessment processes. We selected NPL-caliber sites from various State cleanup
    programs with assessment activities. The availability of site files limited our sample selections for
    Michigan, Pennsylvania, and Washington to sites administered by regional offices located within the
    vicinity of each State’s main office.

                                                   27
•   Evaluated State maintained hazardous waste site files for judgment samples to determine
    compliance with State processes and procedures.

•   Obtained and reviewed hazardous waste site inventories for each State to determine the
    remediation status of sites and whether they were assessed, investigated, and scored promptly. For
    New Jersey, hazardous waste site inventory data related to scoring was not provided. Our work
    for Pennsylvania was based on limited site information because hazardous waste site inventory data
    received did not include activity dates and statuses (the State provided alternate data) and
    information was not available from the State’s official database, E-Facts.

To evaluate States’ cleanup standards and remedy selection processes, we:

•   Obtained listings of NPL-caliber sites with Records of Decision or equivalent documents issued for
    each State, generally during the review period.

•   Selected a judgmental sample of a minimum of three sites for each State. We selected a mix of
    State- and responsible party-lead NPL-caliber sites with decision documents completed generally
    between October 2000 and March 2003. Additionally, the availability of site files limited our
    sample selections for Michigan, Pennsylvania, and Washington to those sites administered by
    regional offices, located within the vicinity of each State’s main office.

•   Evaluated State maintained hazardous waste site files for judgment samples. For purposes of this
    evaluation, we defined sound science as a decision process that adheres to conventionally accepted
    models and procedures and is based on accurate and reliable data.

To evaluate States’ planning process for O&M responsibilities for LTRAs at NPL sites, we:

•   Interviewed State program officials to discuss their programs for conducting and funding O&M
    activities at NPL and other hazardous waste sites.

•   Reviewed EPA policies and guidance associated with O&M for LTRA sites to determine EPA and
    State requirements and procedures for managing these sites.

•   Interviewed officials and obtained information from OSWER’s Office of Superfund Remediation
    and Technology Innovation pertaining to OSWER’s Optimization Initiative and Optimization
    Studies conducted at LTRA Sites.

•   Obtained listings of LTRA sites on the NPL from OSWER’s Office of Superfund Remediation and
    Technology Innovation and the States in order to identify the number of sites scheduled for transfer
    to the States during the period 2004 through 2013, and also obtained and evaluated O&M funding
    projections from the States for that period.



                                                   28
                                                                                                                                        Appendix B

                          Details on States’ Hazardous Waste
                                Site Cleanup Programs

 New Jersey

In 1976, New Jersey promulgated the Spill Compensation and Control Act, which was the first
government program to address cleanup of contaminated land. In 1980, Congress designed Superfund
from New Jersey’s program. New Jersey’s Department of Environmental Protection is responsible for
administering the State’s hazardous waste cleanup programs. The Site Remediation and Waste
Management Program, regulated by NJAC 7:26E Technical Requirements for Site Remediation, is the
State’s primary cleanup program. The program is addressing more than 1,035 hazardous waste sites3
through State- and responsible party-lead actions. Approximately 562 of these sites are higher priority
sites that could be considered NPL-caliber.

The State's Spill Compensation Fund, Hazardous Discharge Bond Fund, and Corporate Business Tax
revenues provide the primary sources of funding for the Site Remediation and Waste Management
Program. These funds provide for a variety of cleanup activities, including: site investigation, CERCLA
match, studies and design, operation and maintenance, removals, remedial actions, program
administration, natural resource restoration, and long-term stewardship. State budget reports for fiscal
2000-2003 indicate overall program funding has decreased (in constant 2003 dollars) from
approximately $90.9 million in fiscal 2000 to $82.2 million in 2003, or approximately 9 percent.
Staffing levels have remained relatively constant, with approximately 513 full-time equivalents (FTEs).

Cleanup Standards

New Jersey has developed cleanup standards and/or criteria that are derived from EPA toxicological
information and exposure pathway models using exposure assumptions and risk calculations for soil,
ground water, and surface water. To consider development of risk-based cleanup criteria, New Jersey
includes: land use scenarios, exposure pathways, background levels, maximum contaminant levels
(MCLs), aquifer use, chemical-specific health-based criteria, water quality criteria, State statutory
requirements, soil type, and environmental impact data. The criteria are based on a risk level of 1x10-6
for carcinogens and a Hazard Index value of less than or equal to 1 for non-carcinogens, and thus are
consistent with EPA goals.




           3
              According to the 2001 Known Contaminated Sites List, the Program has 12,648 sites (including petroleum sites). Since
our review pertained to Superfund hazardous substances, we focused our review on the State’s Industrial Site Recovery Act facilities,
and the sites listed in the Publically Funded Cleanup Sites Report 2002. This effort yielded a list of 1,035 sites. Working with
Program officials, we estimated that 562 of these sites could be considered NPL-caliber.


                                                                          29
New Jersey uses a lookup table to identify generic remediation standards for soils that are risk-based
goals presented as Soil Cleanup Criteria. The standards are generic chemical-specific health-based
standards, and include as criteria: residential direct contact, nonresidential direct contact, and site-
specific impact to ground water.

The State has developed Ground Water Quality Standards and Surface Water Quality Standards
using Federal guidance. These standards specify cleanup levels and designated uses of water, and
include specific, interim generic and interim specific criteria. The specific and interim generic criteria are
chemical specific lookup values. The interim specific criteria are applied where cleanup levels have not
been established and are derived using EPA risk guidance methodologies and associated risk
equations. The State has 13 drinking water standards that are less stringent than Federal ones, but it
applies the more stringent standard when there are both Federal and State standards. Classification
Exception Areas are established to classify ground water according to a combination of natural
characteristics and actual or potential uses where ground water standards have not been met.

New Jersey has also established a formal process for assessing risks posed by contaminated sediments.
The Guidance for Sediment Quality Evaluations forms a framework for determinations of actual or
potential adverse ecological effects from contaminated sediments, and includes guidelines for
developing sampling plans and screening values for conducting ecological risk assessments. These
assessments are based on EPA risk guidance documents.

Remedy Selection Process for NPL-Caliber Sites

The State has established formal remediation decision processes through laws, regulations, and
procedure manuals for hazardous waste sites. New Jersey’s remedy selection process requires
scientific analysis, disclosure, and documentation including an ecological risk evaluation, site
investigation report, remedial investigation/feasibility studies, remedial alternatives analyses report,
remedial action selection report, and final decision document. In addition, the nine criteria specified by
the NCP are generally included in the decision process. Similar to Superfund, the State also uses
interim remedial actions to mitigate risks posed by sites until a final remedy is selected.

The major difference between the decision process used by the State and Superfund is the evaluation of
risk. Under the Superfund program, a baseline risk assessment is required to be conducted as part of
the decision process. However, a risk assessment is not required under New Jersey’s process; instead,
the State considers risk through its soil, ground water, and surface water cleanup criteria.


Michigan

Michigan’s Remediation and Redevelopment Division of the Department of Environmental Quality is
responsible for administering the State’s hazardous waste cleanup program. The Environmental
Cleanup and Redevelopment Program is the State’s primary cleanup program. This program is
addressing approximately 1,700 State- and responsible party-lead hazardous waste sites. According


                                                     30
to program officials, 847 of these active sites represent higher priority State-funded sites that could be
considered NPL-caliber.

The State’s Cleanup and Redevelopment Fund and the Clean Michigan Initiative Bond Fund provide
funding for a variety of cleanup activities under the program, including: site investigation, CERCLA
match, studies & design, O&M, removal actions, remedial actions, and program administration. State
funding proposals for the last four fiscal years indicate funding has decreased (in constant 2003 dollars)
approximately 30 percent, from $23.4 million in fiscal 2000 to $16.3 million in fiscal 2003. Although
staffing levels have remained relatively constant, with approximately 236 FTEs, program duties have
increased since 2002 due to program restructuring, hiring freezes, and more recently, “early out”
retirements.

Cleanup Standards

Part 201 of Michigan’s Natural Resources and Environmental Protection Act regulates the remediation
of hazardous waste sites. Michigan has established cleanup standards for soil, ground water, and
surface water that are risk-based and reflect the potential for human health risk from exposure to
contaminants based on requirements of Part 201.

The State uses lookup standards for soil and ground water which were established through the
application of generic exposure assumptions and risk assessment formulas using EPA risk assessment
guidance and calculations. In addition, site specific standards may be developed by conducting a risk
assessment that is generally consistent with Superfund’s baseline risk assessment process. Michigan
considers land use as a significant factor in establishing cleanup standards, as well as background levels,
water quality criteria, MCLs/MCL goals (MCLGs), chemical specific health-based criteria, State
statutory requirements, and environmental impact data. Calculated cleanup standards are based on a
risk value of 1x10-5 for carcinogens and a Hazard Index value of 1 for non-carcinogens.

Cleanup standards for soil and ground water are applied at sites based on the three main land use
categories: residential, commercial, and industrial. The residential standards are the most restrictive for
site remediation; the party remediating the site is allowed to select the category of cleanup standard,
provided that the remedial action plan documents that the cleanup criteria category is consistent with
zoning and is subject to State approval. For commercial or industrial sites, it must be demonstrated that
the selected category is appropriate for future land use. The generic cleanup standards for soil are
calculated for carcinogenic and non-carcinogenic constituents based on land use associated with
contaminant exposure risks from direct contact, leaching into ground water, and indoor inhalation. The
cleanup standards for ground water are calculated for these constituents based on risks associated with
adverse aesthetic impacts, ingestion for drinking water, human dermal contact, indoor inhalation, and
ground water/surface water interface (GSI).

Michigan’s criteria for the GSI is used to evaluate the impact that contaminated ground water may have
on a surface water body which is an ARAR in the Superfund program. The State’s cleanup standards
for surface water are modeled from Federal surface water criteria including the National Pollutant

                                                    31
Discharge Elimination System. The State’s cleanup criteria sets minimum water quality requirements
based on designated use. Consistent with Federal requirements, Michigan has separate standards for
protection of human health, aquatic organisms, and wildlife.

Michigan has established guidance that serves as a mechanism for development of site specific sediment
cleanup criteria. The objective of the criteria is to provide protection of aquatic life, wildlife, and human
health. A phased approach is used to determine the potential for contaminated sediments to exceed
water quality standards, and consider appropriate response actions based on use impairments. The
guidance was developed from EPA Ecological Screening Levels and other EPA guidance documents.

Remedy Selection Process for NPL-Caliber Sites

Michigan’s remedy selection process for NPL-caliber sites is based on risk reduction and is determined
based on land use categories. Once a category has been identified, the remedy decision process is
generally consistent with the Superfund program. The State’s decision process includes studies that
characterize the type and extent of contamination and analysis of remedial alternatives. Similar to
Superfund, the State requires decisions to be supported by scientific analysis, public disclosure and
participation, and documentation.

In contrast to the Superfund program, Michigan does not require the use of site-specific baseline risk
assessments. The State generally considers human health and environmental risks through development
and application of its cleanup standards. In addition, interim response actions are designed and
implemented to mitigate risk associated with land use until the final remedy is selected. Interim actions
include soil removal/relocation and containment/capping activities. Michigan’s risk reduction approach
to remedy selection is generally consistent with the Superfund program. Furthermore, soil remediation
is generally based on the need to protect an aquifer from hazardous substances.


Pennsylvania

Pennsylvania's Department of Environmental Protection, Bureau of Land Recycling and Waste
Management, administers the State’s hazardous waste cleanup programs, including the Hazardous Sites
Cleanup Program and the Land Recycling Program. These programs, regulated by the Hazardous Site
Cleanup Act, are addressing approximately 700 hazardous waste sites. The Hazardous Sites Cleanup
Program investigates and remediates contaminated sites through State- and responsible party-lead
actions. The Land Recycling Program oversees the State’s voluntary cleanup program, and promotes
the recycling and redevelopment of contaminated industrial sites. As of July 8, 2003, there were six
active sites on the State’s Priority List that represent NPL-caliber sites.

The State’s Hazardous Sites Cleanup Fund provides funding for cleanup activities, including: site
investigation, studies & design, O&M, removal actions, remedial actions, grants to local governments,
CERCLA match, emergency response, program administration, and long-term stewardship. Fund
reports indicate funding decreased (in constant 2003 dollars) from approximately $177.9 million in


                                                     32
fiscal 2000 to $138.4 million in fiscal 2003, or about 22 percent. Staffing levels have remained
relatively constant, with approximately 299 FTEs.

Cleanup Standards

Act 2 of the Pennsylvania Land Recycling Program establishes three environmental remediation
standards to provide a uniform framework for establishing cleanup levels: background, generic State-
wide health, and site-specific standards. The standards apply to soil, ground water and surface water.
These standards are derived from water quality standards and criteria, EPA toxicological information,
environmental impact data, exposure pathway models and assumptions, and human health risk
calculations. For the generic State-wide health standards, State regulations mandate use of MCLs and
State-developed health advisory levels. All three standards also consider land use, aquifer use, and
background levels.

The background and generic State-wide health standards were developed using risk-based
methodologies derived from EPA and other scientifically recognized risk assessment guidance and
criteria. These standards are based on risk standards of 1x10-5 for carcinogens and a Hazard Index
value of less than or equal to 1 for non-carcinogens. These standards are provided in lookup tables
and establish medium specific cleanup levels based on various land use scenarios and contaminant
exposure pathways.

The site-specific standard represents a risk management approach to establishing cleanup levels.
Under this standard, a remedial investigation is required to determine whether potential exposure
pathways exist. In cases where potential for exposure does exist, a site specific risk assessment is
required to establish cleanup levels. The State requires that these risk assessments be conducted using
EPA risk assessment guidance. Additionally, the State has established an acceptable risk level range
for carcinogens of 1x10-4 to 1x10-6, with a limitation that cumulative risk cannot exceed 1x10-4 for risk
assessments. Risk assessments are also required to be based on a Hazard Index of no more than 1 for
non-carcinogens. The background standard may be applied when the contamination is not related to
any onsite release. Applying the standards are generally at the discretion of the party responsible for
addressing the site. The generic State-wide health standard is the most commonly used method for
determining cleanup levels and addresses soil, ground water, and surface water.

Remedy Selection Process for NPL-Caliber Sites

Pennsylvania’s remedy selection process for NPL-caliber sites is similar to the decision process used
for the Superfund program. The State’s process requires scientific analysis, disclosure, and
documentation that are similar to Superfund Remedial Investigation/Feasibility Study, Proposed Plan,
and Record of Decision processes, and documentation. The State’s remedy selection process includes
consideration of the: (1) nature of contamination; (2) potential human and environmental risks; and (3)
time and cost of remediation. In addition, the nine criteria specified by the NCP are generally included
in the decision process.



                                                   33
Although similar, the State’s process is not equivalent to Superfund’s process. Superfund requires that
a baseline risk assessment be conducted as part of the Remedial Investigation/ Feasibility Study.
However, the State does not require a baseline risk assessment unless the site-specific standard is
applied at a site. The generic State-wide health standard is applied at most sites, including NPL-caliber
sites; therefore, baseline risk assessments are not required for most remedy decisions. Similar to
Superfund, interim remedial activities may be conducted to mitigate risk from known contamination
prior to implementation of a final remedy. Interim activities include source removal and containment,
and are intended to support a final remedy.


Kansas

The Kansas Department of Health and Environment's Bureau of Environmental Remediation is
responsible for administering the State’s hazardous waste cleanup programs. Kansas has three
programs that may address NPL-caliber sites: State Water Plan Contamination/Remediation Program,
State Cooperative Program, and Dry Cleaning Trust Fund Program. These programs, regulated by
various State Acts, are addressing approximately 361 hazardous waste sites. According to program
officials, 63 of these sites could be considered NPL-caliber.

The State Water Plan Program addresses contaminated sites where the responsible party is either
unknown, unwilling, or unable to conduct the cleanup. The State Cooperative Program provides
oversight of more complex, higher priority responsible party cleanups that are conducted under
administrative or consent orders. The Dry Cleaning Trust Fund Program conducts and oversees the
cleanup of contaminated dry cleaning facilities utilizing revenues generated through taxes on the Dry
Cleaning Industry and certain chemical use.

The State Water Plan-Contamination Remediation Account and the State Environmental Response
Fund provide funding for State and Federal funded cleanups activities, including: site investigation,
studies and design, removals, emergency response, remedial action, CERCLA match, O&M, and
program administration. Budget data provided by the State indicates that funding for the State’s
General Fund and Water Plan decreased (in constant 2003 dollars) from approximately $1.8 million in
fiscal 2000 to $1.4 million in fiscal 2003, or approximately 17 percent. In addition to the General Fund
and Water Plan, the State maintains a Fee Fund that represents revenue generated from various
programs. The fund, which primarily supports the oversight of responsible party cleanups, experienced
significant increases in revenues over the 4-year period. The most significant increase in revenue was
attributable to the Dry Cleaning Trust Fund, which increased from $523,804 in fiscal 2000 to over $1.6
million in fiscal 2003. Staffing levels have remained relatively constant, with approximately 111 FTEs.

Cleanup Standards

Kansas uses a three-tiered system for defining the applicable cleanup standards for individual sites for
soil and ground water. The State’s surface water quality standards are used for cleanup levels for
surface water. The Risk-Based Standards for Kansas Manual establishes the process for determining


                                                   34
chemical-specific and site-specific cleanup goals for the system. The cleanup standards for each of the
tiers are based on ARARs; MCL/MCLGs; chemical, physical and toxicological properties of
contaminants; background levels; land use; and other environmental impact data. Cleanup levels for
Tiers 1 and 2 are based on risk standards of 1x10-6 and 1x10-5, respectively, for carcinogens, and a
Hazard Index value of 1 for non-carcinogens. Tier 3 standards are developed using site-specific data
in the existing Tier 2 formulas or baseline risk assessments. Kansas generally requires that baseline risk
assessments follow EPA risk assessment guidance. Tier 3 cleanup levels may not exceed a risk
standard of 1x10-4 for carcinogens and a Hazard Index of 1 for non-carcinogens.

Kansas applies Tier 1 standards when natural background levels for constituents exceed a risk standard
of 1x10-6 for carcinogens or a Hazard Index value of 1 for non-carcinogens. Tier 2 standards are the
default standards for hazardous waste sites, including NPL-caliber sites. For ground water sites the
Federal MCL is also used as default standards. Tier 3 standards are applied in instances where
responsible parties desire assurance that remedies are consistent with the NCP. The State determines
cleanup levels for surface waters using Kansas Surface Water Quality Standards, which are derived
from Federal water quality standards and criteria. These standards are applied at hazardous waste
sites, where applicable.

Remedy Selection for NPL-Caliber Sites

Kansas’ remedy selection process was designed from the Superfund process. Consequently, the
State’s process for NPL-caliber sites is generally consistent with EPA’s decision process for NPL
sites. For NPL-caliber sites, Kansas requires scientific analysis, disclosure, and documentation that are
similar to Superfund’s Remedial Investigation/Feasibility Study, Proposed Plan, and Record of Decision
processes and documentation. The major difference between the Superfund and State’s process is the
approach for assessing risk. The Superfund program requires that the decision process include a site
specific baseline risk assessment. The State does not require a risk assessment because Tier 2 cleanup
standards are applied to most NPL-caliber sites. A baseline risk assessment is only required for sites
when the responsible party must follow the NCP for future liability protection. This determination is
generally made by the responsible party. Site-specific risk assessments are only required when Tier 3
standards are applied. Similar to the Superfund process, Kansas uses interim remedial measures to
contribute to the efficient performance of long-term remedial actions.


Washington

Washington's Department of Ecology administers the State’s hazardous waste cleanup program. The
Toxics Cleanup Program, regulated by the Model Toxics Control Act, is the State’s primary cleanup
program. This program is addressing approximately 1,641 State- and responsible party-lead
hazardous waste sites. According to program officials, 304 of these active sites would be considered
NPL-caliber.




                                                    35
The Toxics Cleanup Program primarily addresses contaminated sites through the oversight of
responsible party investigative and remedial activities. With the exception of a one-time appropriation
of $9.4 million in fiscal 2002 under the Clean Sites Initiative, funding limitations have precluded the
program from initiating State-funded cleanup actions. The program also oversees the assessment of
sites conducted by county health departments under State site assessment grants, and the remediation
of sites by local governments under State Remedial Action Grants. In fiscal 2003, grants funds totaling
over $17 million were awarded for cleanup activities at 21 sites, and program officials said some would
be considered NPL-caliber sites.

The State Toxics Control Account and Local Toxics Control Account provide funding for site cleanup
activities including: site investigation, emergency response, removal actions, studies and design, remedial
actions, O&M, CERCLA match, long-term stewardship, and program administration. State Budget
and Program Overview reports indicate funding decreased (in constant 2003 dollars) from
approximately $89.6 million in the 1999-2001 biennium to $61.8 million in the 2003-2005 biennium, or
approximately 31 percent. Staffing has remained relatively constant, with approximately 145 FTEs.

Cleanup Standards for NPL-Caliber Sites

The Washington Model Toxics Cleanup Act established three methods for developing cleanup
standards for hazardous waste sites. Cleanup standards are established for each medium at a site and
are developed based on ARARs and other criteria, including: background levels, MCLs/MCLGs,
aquifer use, chemical specific health based criteria, land use, water quality criteria, and other
environmental impact data.

Method A specifies cleanup levels for approximately 30 of the most common hazardous substances in
soil and ground water at sites. These cleanup levels are provided in lookup tables. Method A
standards are based on a risk level of 1x10-6 for carcinogens and a Hazard Index of less than 1 for non-
carcinogens. Method B provides two tiers – standard and modified. The standard method uses State
and Federally developed risk formulas and generic default assumptions to calculate cleanup levels. In
contrast, the modified method provides for the use of chemical- or site-specific information to change
selected default assumptions in formulas. Method B may be used at any site, including NPL-caliber
sites, and is the most common method for setting cleanup levels when sites are contaminated with
constituents not listed under Method A. A carcinogenic risk level of 1x10-6 is assigned for both
standard and modified Method B levels. Method C also has standard and modified tiers, and is based
on a carcinogenic risk level of 1x10-5 and a non-carcinogenic hazard index of less than 1. Method C is
generally applied at sites where natural background levels for constituents exceed Method A and B
cleanup levels, or when the other methods cannot be achieved because of technology limitations or
other factors.

Washington has also developed cleanup standards for contaminated sediments. The objective of these
standards is to eliminate adverse effects on biological resources and human health from contaminated
sediments. These standards are established on a site-specific basis and developed using risk-based
criteria and apply to marine, low salinity, and freshwater sediments.

                                                    36
Remedy Selection Process for NPL-Caliber Sites

Washington’s remedy selection process requires scientific analysis, disclosure, and documentation that
are similar to Superfund remedy requirements, with the exception of risk assessments. Washington’s
process for NPL-caliber sites requires analysis similar to the Remedial Investigation/Feasibility Study
process. In addition, the State requires development of a proposed plan, solicitation and consideration
of public comments on the proposed remedy, and documentation of the remedy decision. However,
the State does not require that the remedy decision process include a site specific baseline risk
assessment. Instead, the State relies on the Washington Model Toxics Cleanup Act methods to
determine cleanup levels for NPL-caliber sites. Although Methods B and C use risk assessment
formulas derived from State and EPA guidance, the cleanup calculations for both tiers are less
comprehensive than a site-specific baseline risk assessment. Washington also uses interim remedial
actions to mitigate threats posed by sites until the final remedy is selected.




                                                  37
38
                                                                                                                  Appendix C

                            Systems Used for Scoring Sites
Pennsylvania uses EPA’s Hazardous Ranking System exclusively to prioritize hazardous waste sites for
State-funded remedial actions. New Jersey, Michigan, Kansas, and Washington have developed
ranking systems similar to EPA’s system to assist in prioritizing sites.

New Jersey, Michigan, Kansas, and Washington generally score all sites intended to be addressed with
State funding as part of their assessment process. In contrast, Pennsylvania only scores sites requiring
State funding in excess of $2 million. Although scoring is an important aspect of the assessment and
prioritization process for each of the four States besides Pennsylvania, assigned scores do not establish
absolute priorities or the order in which sites are addressed. Instead, the scores provide a relative
ranking of sites based on estimated risk to human health and the environment. These States generally
prioritize sites for remediation using assigned scores, as well as other factors, such as economic
development opportunity, cost, and available funding. The table identifies the system and scoring
ranges for each State.


                                                                            Score        Priority/NPL-
                           State                   System                   Range        Caliber Range

                      New Jersey          Remedial Priority                1 - 1000         350-1000
                                          System

                      Michigan            Site Assessment Model             0 - 48           30 - 48

                      Pennsylvania        EPA’s Hazardous                  1 - 100         28.5 - 100
                                          Ranking System

                      Kansas              Contaminated Sites               1 - 100             N/A4
                                          Ranking System

                      Washington          Washington Ranking                 1-5               1-2
                                          Model




New Jersey developed its scoring system to rank contaminated sites awaiting assignment to ensure that
sites are addressed on a “worst first” basis. The system calculates scores using criteria that assess risks
associated with confirmed or potential contamination of ground water, surface water, and soil. The
State is currently in the process of developing a new scoring system that is intended to better define the
levels of risk that hazardous substances pose to health and the environment. In addition to the remedial
priority system, the State also utilizes HRS and HRS Pre-Score to score sites under its EPA grant.



          4
            Kansas does not have a range or specific score in its scoring system to designate a site as an “NPL
caliber” site.

                                                                39
Michigan’s assessment model calculates site priorities based on evaluations of existing and potential
chemical substances. The model is a structured value assessment based upon perceived risk of actual
and potential affected resources. The State is currently in the process of rescoring sites based on a
change in the assessment model that was necessitated by the inclusion of the State’s cleanup standards
into the scoring model. In setting funding priorities, Michigan places emphasis on those sites that
present the most significant risks to public health and the environment, as well as those sites with
redevelopment potential.

Kansas’ ranking system establishes scores based on type of waste and actual or potential impact to
soil/bedrock, surface water, ground water, and air. Human exposure pathways are primary factors
considered by the State’s scoring system. In establishing funding priorities, the State designates
emergency priority status for sites where drinking water supplies are impacted or the potential exists for
direct contact to highly contaminated soil, waste, or ground water.

Washington’s ranking model estimates the relative potential risk posed by the site to human health and
the environment. Score calculations consider air, ground water, and surface water migration pathways;
human and nonhuman exposure targets; properties of the substances present; and the interaction of
these variables. In establishing funding priorities, the State also considers other factors such as:
potentially liable parties ability to pay, public concern, and economic factors (e.g., will create substantial
jobs and feasibility of cleanup).

Pennsylvania uses the Hazardous Ranking System to score sites in its hazardous waste cleanup
program. Unlike most States, Pennsylvania does not score sites as part of its assessment process;
rather, sites are scored for listing on the State’s priority list for funding. State statute requires that
remedial activities for State-funded cleanups with estimated costs in excess of $2 million be scored and
placed on the State’s priority list for funding. Scoring and listing on the priority list is contingent upon
availability of funds. In establishing funding priorities, Pennsylvania has taken the position to only
expend funds on sites where public health is at risk and where reuse efforts exist in communities that
benefit the State. Sites exhibiting only environmental risk are either referred to EPA for listing on the
NPL or deferred until funding is available to address identified risks.




                                                     40
                                                                                               Appendix D


                             Memorandum to Region 3

                               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                             WASHINGTON, DC 20460


                                                                                              OFFICE OF
                                                                                            INSPECTOR GENERAL



                                                April 14, 2004

MEMORANDUM

SUBJECT:             OIG Findings on Review of Pennsylvania Landfill Remedy

FROM:                Carolyn Copper /signed/
                     Director for Program Evaluation: Hazardous Waste Issues
                     Office of Program Evaluation

TO:                  Donald S. Welsh
                     Region 3 Administrator


During fieldwork for an ongoing Office of Inspector General evaluation, we identified an issue in the state
of Pennsylvania that we are forwarding for your review and action. As part of our study of five State
cleanup programs (Pennsylvania, New Jersey, Michigan, Kansas and Washington) and the management
of their State-lead NPL-caliber sites, we found that the Adam’s Sanitation Company (ADSCO) Landfill in
Pennsylvania has a final selected remedy that has not been evaluated through a formal process. As a
result, assurance cannot be provided that the selected remedy will eliminate potential direct contact
exposure pathways, contain landfill waste over the long term, minimize surface water infiltration through
the waste and leachate generation, and minimize contaminated groundwater migration off-site. In addition,
we have concerns about the quality of the information used in the remedy selection decision process. We
are recommending that Region 3:

<       Review Pennsylvania’s decision process for the site to determine whether the remedial decision is
        supported by appropriate data and analysis and provides reasonable assurance that the remedy will
        eliminate potential direct contact exposure pathways, contain landfill waste over the long term,
        minimize surface water infiltration through the waste and leachate generation, and minimize
        contaminated groundwater migration off-site, and
<       If the remedial decision is not adequately supported, take appropriate action to ensure that the
        remedial decision is reevaluated using data and analysis that provides reasonable assurance that the
        selected remedy will provide effective protection to human health and the environment.


                                                      41
If Region 3 authority limits actions you can take on these matters we request that you forward this letter
to the proper authorities. Information on the site and our findings follow.

Background

The ADSCO landfill is an inactive municipal and industrial waste landfill located along Cranberry Road
near Aspers, Pennsylvania. According to Pennsylvania’s Department of Environmental Protection (DEP),
this site is a State-led, NPL-caliber site managed under Pennsylvania's Hazardous Sites Cleanup
Program. The site is located on a farm property consisting of 108 acres of which more than 23 acres are
landfilled. The site consists of three areas filled during three different time periods. These areas include:

<       “very old fill area”: an unpermitted dumping site in the 1940?s-1960?s located at the southern
        portion of the site. The boundaries are not defined.
<       “old fill area”: consisting of 13 acres landfilled from 1977-1983 located in the northcentral portion
        of the site.
<       “new fill area”: Keystone Sanitation Company leased 30 acres north of the old fill area, and
        operating as ADSCO, landfilled eight acres. The landfill closed in approximately 1989.
<       The old and new fill areas operated with a leachate collection system, aeration lagoon and two
        settling lagoons under an NPDES permit. The very old fill area is an unlined dump. There is no
        indication that similar engineering controls are in place at the very old fill area.
<       The area surrounding the site consists mostly of agricultural lands. There is one onsite residence
        and there is limited residential development adjacent to the site. There are approximately 65
        domestic wells serving approximately 3,700 people within a three-mile radius of the site.

Aquifer Contamination and DEP Response

Operations at the ADSCO landfill have resulted in contamination of a spring and aquifer beneath and
surrounding the site at levels exceeding medium-specific cleanup standards and Maximum Contaminant
Levels (MCLs). The aquifer supplies domestic wells in the area. In 1985 volatile organic compounds
(VOCs) were detected in the spring serving as the water supply for the onsite residence. Subsequent
sampling of the spring and bedrock drinking water aquifer has detected VOCs in excess of MCLs.
Several subsurface investigations have occurred, including a Preliminary Assessment conducted by EPA
in 1989. The site was judged, “No Further Remedial Action Planned” (under CERCLA) and was
archived in CERCLIS in 1990. A Focused Feasibility Study presented remedial alternatives. The site is
currently in “design phase” that incorporates elements of the initially selected remedy.

Alternative remedies were evaluated and the selected remedy was presented for public comment. The
remedy would comply with ARARs and included:

<       Installation of a synthetic cap on the “old” and “new” fill areas in accordance with Pennsylvania
        regulations for municipal waste landfills. No plans exist to cap the “very old” fill area south of
        Cranberry Road as it is not considered by DEP to be a significant contributor to groundwater
        contamination. This ARAR would be waived on the basis of cost effectiveness.
<       Installation of an active combustor gas venting system.
<       Upgrade of a leachate collection and treatment system.
<       Natural attenuation of two surface water (spring) discharges by collection in a lagoon.




                                                       42
<       Maintenance of a point-of-entry treatment system for the onsite residential water supply. This
        was addressed as a prompt interim response and the source spring water will continue to be
        treated.
<       Implementation of a long-term monitoring program to assess plume migration and to protect
        downgradient receptors (i.e., streams).

Portions of the remedial action alternative were chosen based on cost-effectiveness considerations.
Groundwater modeling has shown that landfill capping is more effective at reducing contaminant
concentrations in groundwater than pumping and treating over a twenty-year period.

DEP documents supporting the initially selected remedy alternative indicate that it would be effective in
eliminating potential direct contact exposure pathways, in containing landfill waste over the long term, in
minimizing surface water infiltration through waste and subsequent leachate generation and, in minimizing
contaminated groundwater migration off-site. The remedy would meet surface water quality discharge
limits for VOCs for leachate treatment and the spring discharge and would complies with landfill closure
regulations concerning capping the old and new fill areas.

OIG Concerns Related to Remedy Selection

<       The approved remedy has been modified from its original presentation. The installation of
        a cap on the old and new landfill areas is considered integral to the success of supporting remedial
        technologies and overall remediation of the site. The approved remedy consisting of a synthetic
        cap and supporting technologies was presented for public comment. However, the subsequent
        Statement of Decision is contradictory and appears misleading. It states concurrence with the
        approved remedy, but concludes that installation of the cap (the cornerstone of the combined
        selected remedy) would be retained as a contingent component of the remedy. The modified, and
        final remedy consists of many of the supporting remedial technologies of the cap, without the cap.
        Thus, the final selected remedy is not an alternative that has been evaluated through a formal
        process. The public has not been informed of this change in the remedy. Importantly, the
        environmental and public health that the publicly presented remedy was designed to protect
        cannot be assured under the final remedy.

        According to Pennsylvania state officials, budget cuts resulted in the synthetic cap becoming a
        contingent component of the remedy. We do not have information to determine whether budget
        cuts were the primary reason for the change in remedy.

<       Decisions based on site characterization data, including those related to risk, and
        remedy selection, may have been based on unreliable data because the site
        characterization is incomplete.

        <        The VOC plume in the bedrock aquifer is over ½ mile in length and 1,000 feet wide
                 downgradient (south) and has not been adequately delineated to the north, southwest and
                 southeast. VOCs were not detected from the testing of several domestic wells in 1999
                 and 2000, however, the migration potential of the plume has not been evaluated and it is
                 unknown whether the plume will reach sensitive receptors over time. The receptors
                 potentially include small streams and domestic wells.
        <        The groundwater monitoring well network is inadequate to evaluate groundwater
                 characteristics and contaminant distribution in the aquifer. It is possible that two separate

                                                       43
                 sources of PCE and two separate plumes are present at the site including one from the
                 new fill area and one from the old fill area. Data collected to date has not confirmed,
                 verified, or refuted this situation. The new and old fill areas are the primary sources of
                 groundwater contamination, although the lateral extent of significant in the waste has not
                 been delineated. Although VOCs were detected in soil gas samples collected from the
                 very old fill area south of Cranberry road the extent to which contamination from this
                 area has contributed to the overall groundwater plume is unknown because only one soil
                 boring has been advanced.
        <        Hot spots in the source area have not been conclusively identified.
        <        The Focused Feasibility Study was based on data obtained from incomplete site
                 characterization.

We have spoken with EPA and Region 3 officials about the site, and were informed that Region 3 has not
been involved with it since it was archived in 1990.

We did not identify concerns at other sites in Pennsylvania we looked at as part of our ongoing review.

We will contact your office within two weeks of the date of this letter to answer questions or discuss this
matter further. In the meantime, I can be reached at 202-566-0829, or Steven Textoris, the lead staff on
this issue, can be reached at 202-566-1033.




cc:     Kirby Biggs-OSWER-Assessment and Remediation Division
        Kwai Chan-OIG
        Eileen McMahon-OIG
        Michael Owen-OIG
        Abraham Ferdas-Region 3, Superfund Division Director
        Jim Mccreary-Region 3, Chief, Brownfields Assessment Section
        Cornelius Carr-Region 3, Audit Liaison




                                                      44
                                                                                                               Appendix E

               Superfund NPL LTRA Sites Pending State
              Assumption Over 10-Year Period (2004-2013)

                                                                       Turnover              *Estimated        Optimization
        State                              Sites                         Date                 O&M Cost            Study

 New Jersey             Bog Creek                                      08/20055             $   460,000             Yes
                        Lang Property                                   09/2007             $   700,000             No
                        Higgins Property                                10/2009            $ 1,000,000              No
                        S. Jersey Clothing/Garden State                 09/2010             $   500,000             Yes
                        Vineland Chemical                               06/2011            $ 4,000,000              No
                        Ellis Property                                  09/2012                       N/A           No
                        Lipairi Landfill                                12/2012            $ 2,500,000              Yes
 Michigan               U.S. Aviex                                      03/2004             $   300,000             No
                        Duell & Gardner LF                              09/2004             $     70,000            No
                        Ott/Story/Cordova                               09/2010            $ 2,400,000              Yes
                        Wash King Laundry                               03/2011             $     75,000            No
                        Peerless Plating                                06/2012             $   400,000             Yes
 Pennsylvania           Berks Sand Pit                                  06/2004             $   150,000             No
                        Croydon TCE                                     11/2005             $   200,000             No
                        Hellertown Manufacture                          09/2007             $     50,000            Yes
                        North Penn-Area 1                               09/2008             $   100,000             No
                        Cryochem, Inc                                   05/2008             $   125,000             No
                        Butz Landfill                                   09/2010             $   250,000             No
                        AIW Frank/Mid-County                            09/2011             $   180,000             No
                        Raymark OU 1, OU2, OU3                          09/2011             $   155,711             Yes
                        Havertown PCP                                   03/2013            $ 1,000,000              No
                           th
 Kansas                 57 and Broadway                                 09/2012             $     81,200            No
                        Ace Services                                    09/2013             $   325,000             No
 Washington             Commencement Bay                                12/2005             $   300,000             Yes
                        Total Cost                                                         $15,321,911


*Estimated Costs are in current year dollars.




          5
            The Bog Creek site is currently undergoing additional remedial action based on an optimization study,
therefore the turnover date will have to be adjusted. A new date has not been set.

                                                               45
46
                                        Appendix F




Agency’s Comments to Draft Evaluation Report




                     47
48
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C. 20460



                                                                                                   OFFICE OF
                                                                                          SOLID WASTE AND EMERGENCY
                                                                                                    RESPONSE




                                                July 30, 2004




MEMORANDUM


SUBJECT:         OSWER Response to OIG Draft Evaluation Report “States May Not Meet Future
                 Superfund Cleanup Requirements and Some Current Cleanup Needs Cannot Be
                 Addressed” Assignment No. 2003-000118

FROM:            Barry N. Breen /s/
                 Principal Deputy Assistant Administrator

TO:              Carolyn Copper
                 Director of Program Evaluation: Hazardous Waste Issues
                 Office of Program Evaluation

         The Office of Solid Waste and Emergency Response is providing its response to the Office of
Inspector General (OIG) findings and recommendations contained in the above-referenced draft
assignment. We thank the OIG for its analysis of State hazardous waste site cleanup programs; their
capacity to undertake future actions at sites that are either eligible for or listed on the National Priorities
List ((NPL) and to conduct future operation and maintenance (O&M) funding requirements for NPL
sites; and for providing recommendations for program improvements.

        OSWER will address each of your study findings and recommendations.

        OIG Objective

         Have the States established processes that identify, assess, and prioritize cleanups to ensure
that sites with the greatest threats to public health and the environment are being addressed promptly?




                                                      49
        OIG Recommendation

       OIG recommends that the Agency work with States to determine the key reasons for the
backlogs in completing site assessments and in scoring sites.

        OSWER Response

         While you noted that the five States reviewed (New Jersey, Michigan, Pennsylvania, Kansas,
and Washington) have all implemented processes for identifying, assessing, investigating, and prioritizing
hazardous waste sites that are similar to EPA’s remedial process for the Superfund program, we are
concerned that you found the States have backlogs in sites requiring assessment and scoring. You
further state that until these backlogs are eliminated, the States cannot assure that sites posing the
greatest threat to human health and the environment are promptly addressed, and further, that the
backlog may limit the States’ capacity to address future hazardous waste sites, including sites on the
NPL. Since all five of the States studied have backlogs, we will follow your recommendation that the
Agency, working with States, determine the key reasons for the backlogs.

        OIG Objective

        Are cleanup standards and remedies used by the States based on risk and sound science and
do they provide long-term protection for public health and the environment?

        OIG Recommendation

          EPA should consider streamlining the Superfund remediation process to provide States more
flexibility in the application of baseline risk assessments and in their remedy selection processes.

        OSWER Response

        We are pleased with your finding that the five States reviewed have cleanup standards that are
based on risk and sound science and are intended to be protective of human health and the
environment, that the processes used by these States to characterize contamination, assess risks, and
make remedy decisions generally incorporate sound scientific analysis and are similar to EPA’s remedy
decision process for Superfund, and that the States’ decision processes for NPL-caliber sites generally
provide remedies that are designed to be protective of human health and the environment.

         The observations in this draft report merit additional evaluation. The Agency will be examining
State contributions to the federal Superfund program in the coming year, particularly as it relates to
State-lead cleanups. We will refer to your findings as we develop this evaluation. It is our intent to
share the lessons learned as a result of this with States and other interested parties.




                                                    50
       OIG Objective

       Are States able to support impending operation and maintenance responsibilities?

       OIG Recommendation

        OIG recommends that EPA work with the States to explore viable funding and staffing options
to support their O&M responsibilities for LTRAs at NPL sites, and complete guidance on optimization
of LTRAs at NPL sites.

       OSWER Response

        Your third study objective was to evaluate the States’ capacity to assume O&M responsibilities
for long-term response actions (LTRAs) at NPL sites. Your findings were that the States may lack the
resources to undertake these future obligations due to declining budgets, States are concerned with the
performance of the LTRAs, and the lack of EPA optimization studies of all of the systems.
Consequently, States may be unable to maintain the integrity of remedies and ensure protection of
human health and the environment. Further, inadequate LTRAs may result in the States incurring
unanticipated costs which may impact other cleanup priorities.

         We agree with your recommendation that EPA work with States to explore viable funding and
staffing options to support their O&M responsibilities for LTRAs at NPL sites. We will, through our
Regions, work with the States to jointly assess their O&M funding strategies and identify possible
solutions.

         In response to your recommendation that EPA complete guidance on optimization of LTRAs at
NPL sites to include an action plan that establishes funding and a schedule, below is a description of
activities underway and our timetable for completion of the optimization guidance.

         Upon completion of the pilot phase of the optimization initiative, the Office of Superfund
Remediation and Technology Innovation initiated development of the “Action Plan for Ground Water
Remedy Optimization.” The Action Plan is intended to apply important lessons learned in order to fully
integrate optimization into the Superfund cleanup process. On May 7, 2004, we circulated a draft
Action Plan to the Regions, other OSWER offices, and OSRE for comments. We expect to finalize the
guidance by September 30, 2004. The plan provides details on the following activities, which will help
foster routine optimization at LTRA sites:

•      conduct additional optimization reviews at high priority, Fund-lead sites
       (at a rate of 5-8 sites per year);
•      provide priority funding for the implementation of recommended system changes;
•      monitor implementation progress in the Regions;
•      develop appropriate guidance and training tools;
•      coordinate with State counterparts and responsible parties (RPs); and,

                                                  51
•      establish a network of Regional Optimization Liaisons.

         Thank you for the opportunity to review your draft report. Your focused recommendations will
assist us in enhancing the role of States as co-implementers of the Superfund program. If you have any
questions, please contact Kirby Biggs at (703) 308-8506 or Johnsie Webster, OSWER Audit Liaison,
at (202) 566-1912.




                                                  52
                                          Appendix G




New Jersey’s Comments to Draft Evaluation Report




                       53
54
                                              July 30, 2004



Ms. Carolyn Copper, Director
Program Evaluation: Hazardous Waste Issues
Office of Program Evaluation
USEPA Office of the Inspector General
1200 6th Avenue (OIG-195)
Seattle, WA 98101

Dear Ms. Copper:

Thank you for the opportunity to comment on the draft report, States May Not Meet
Future Superfund Cleanup Requirements and Some Current Cleanup Needs Cannot Be
Addressed.

Generally, the report is accurate as it relates to the OIG visit to our offices, and we
generally agree with the report's conclusions and recommendations. Enclosed are some
specific comments and clarifications that we request be incorporated into the report, the
most notable is a clarification on the backlog in the site assessment process. The report is
correct in that cases currently awaiting the PA/SI process often result from Immediate
Environmental Concern (IEC) cases. However, the report fails to indicate that the
referenced cases are “Unknown Source” cases, and more important the receptor exposure
has been previously remedied. The cases awaiting the PA/SI, are efforts to determine the
source(s) of contamination that caused the IEC. Preventing any exposure to the
contamination is our utmost priority. You are correct in your conclusion that the backlog
is, at least in part, a function of the reduced funding in the PA/SI grant.

Some of the comments provided require a response from your team before we can assess
the accuracy of the information. Please contact Edward Putnam, Assistant Director for
Remedial Response, at 609-984-3074 to discuss those issues.

                                              Sincerely



                                              Joseph J. Seebode, Assistant Commissioner
                                              Site Remediation & Waste Management

c. George Pavlou, Director OERR, Region II


                                             55
                                   Comments
                                OIG Draft Report
           States May Not Meet Future Superfund Cleanup Requirements
              And Some Current Cleanup Needs Cannot Be Addressed
                                  June 28, 2004

Executive Summary

-   In the results paragraph and throughout the summary the phrase “flexible remedy
    decision processes….” Or the word flexible is used to describe the state’s process. It
    is unclear what this means, and the use of the word flexible implies that decisions are
    not consistently applied. Please consider another word that doesn’t imply
    inconsistency.

-   In the Backlog paragraph it seems far reaching to suggest that the backlog of Site
    Assessment cases may limit the states ability to address NPL sites. If this is attributed
    to a statement by some state official then it should be attributed to that official. New
    Jerseys future ability to respond at NPL sites is not effected by the cases awaiting site
    assessments.

-   In the O&M paragraph, declining state budgets are mentioned. Although at the time
    of your visit this was true, since then New Jersey has increased the revenue from the
    corporate business tax and funding of our future obligation for O&M seems secure
    for planning purposes. This needs to be qualified with a statement that New Jersey
    also believes that the statute needs to be amended to include ALL O&M as a 90/10
    cost share so that state funds can used effectively used on non-NPL sites. Although
    we will be able to meet our obligations New Jersey would rather use those funds for
    our obligations at other sites.


Chapter 1
- No specific comments

Chapter 2
- Page 6. Assessment and Investigation- It is unclear if the language in this section is
referring only to the work performed by BEMSA under the PA/SI grant or a more general
statement about investigations in the entire program. PA/SI deliverables under the grant
are entirely federally funded while a combination of state and federal funds are used for
publicly funded remedial program areas.
- Page 7. Backlogs- The 52 cases backlogged represent Unknown Source Ground
Water Investigations that are the basis for conducting Preliminary Assessments and Site
Inspections (PA/SI’s) under the grant. In most cases, BEMSA will perform multiple
PA’s and SI’s as part of the process utilized to investigate each site and to identify
potential responsible parties.

                                             56
We concur that our annual grant award has been cut in half since 2001. The direct impact
of this funding reduction will be a correlating extension of the timeframe needed to
perform PA/SI’s associated with our backlog of Unknown Source Investigations.

Of particular concern in this section is the implication that these backlogged sites still
pose an immediate risk. The sentence that’s missing and needs to be added is the
explanation that these case ALL have had the actual exposure to humans remedied. These
sites that require a PA/SI are for the unknown source aspects of the case.

Chapter 3

-   Page12, cleanup standards- Officially New Jersey has groundwater cleanup standards,
    but only soil “criteria”. Therefore we recommend that “ and criteria” be added
    wherever standards is used.

Chapter 4

-   Page 17, first paragraph, the current fiscal year budget is no longer declining.

-   Page 20, Recommendations- New Jersey would like to suggest an additional
    recommendation to have the OIG suggest the agency support the States efforts to
    have the O&M funding changed to a 90/10 ration for ALL O&M.

Details on New Jersey’s Programs

-   Page 25, first paragraph- The citation is NJAC 7:26E.
-   Page 25, first paragraph- It is unclear where the numbers of cases came from please
    contact us and discuss the source of these numbers. The Site Re mediation Program is
    handling significantly more case that 1,035, and it should be specified that NPL
    caliber equates to C3 and D cases and therefore 562 seems low also. New Jersey
    cannot confirm these numbers without additional information on how they were
    derived.
-   Page 25, Standards- Again “and criteria” needs to be added.

Appendix C

-   It might be worth noting that the PA/SI grant sites are also scored using the HRS and
    HRS pre-score.

Appendix E

-   Bog Creek is currently undergoing additional remedial action based on an
    optimization study, so the takeover date will have to be adjusted. A new date has not
    been set.

                                             57
-   Williams Property is currently not operating and is being monitored so the cost listed
    to operating the site would only apply if monitoring indicates the system has to be
    turned back on.




                                            58
                                         Appendix H




Michigan’s Comments to Draft Evaluation Report




                      59
60
                                          July 28, 2004



Mr. Michael Owen
United States Environmental Protection Agency
Office of Inspector General
1200 6 th Avenue (OIG-195)
Seattle, WA 98101

Dear Mr. Owen:

SUBJECT: Draft Report, States May Not Meet Future Superfund Cleanup
         Requirements and Some Current Cleanup Needs Cannot Be Addressed

Thank you for the opportunity to review the above-subject draft report. The Michigan
Department of Environmental Quality, Remediation and Redevelopment Division (RRD),
has reviewed the draft report and have provided the attached comments.

In general, the title of the evaluation report is somewhat misleading, especially after one
has read the report. The text of the report seems to indicate that the evaluated states
run cleanup programs that while different from the strict Superfund process, are equally
able to identify and address risks in a sound, scientific manner. In addition, the use of
the term “hazardous waste” throughout the report seems inappropriate as hazardous
waste sites are addressed throug h the federal Resource Conservation and Recovery
Act, as opposed to the Superfund Program, which is the focus of the report.

The Executive Summary indicates that the United States Environmental Protection
Agency (U.S. EPA) is considering the future direction of the Superfund Program. The
audit report; however, does not attempt to take the information gleaned from the five
state reviews to determine if there are aspects of some successful state programs that
can be suggested for the federal Superfund Program. This is unfortunate, as the states
are often the laboratories for discovering new, more efficient and effective methods to
address environmental problems.

We strongly support the Recommendations as stated in the Executive Summary of the
draft report and would enjoy the opportunity to find mechanisms for the states to
assume greater responsibility in the Superfund Program.


                                            61
Mr. Michael Owen                         2                                  July 28, 2004


Specific comments on the body of the report can be found attached to this letter. If you
need further information or have any questions relative to our comments you may
contact Mr. Andrew W. Hogarth, Chief, RRD, at 517-335-1104 or you may contact me.
An electronic version will also be provided to your attention as requested in the June 28,
2004, letter.

                                         Sincerely,



                                         Steven E. Chester
                                         Director
                                         517-373-7917

cc: Mr. Jim Sygo, Deputy Director, MDEQ
    Ms. JoAnn Merrick, MDEQ
    Mr. Andrew W. Hogarth, MDEQ
    Ms. Elizabeth M. Browne, MDEQ




                                             62
              Michigan Department of Environmental Quality Comments
                                   Draft Report
   States May Not Meet Future Superfund Cleanup Requirements and Some Current
                           Needs Cannot be Addressed

Chapter 2, pages 7 and 8.
The draft report indicates that the auditors were unable to verify the lack of backlog for
site assessments due to insufficient inventory data. All National Priorities List-caliber
sites in Michigan have been scored and assessed at least once. Due to recent
regulatory changes the state has to update all site scores based on new criteria. In
most cases, this is a re-scoring, and not the initial evaluation. The only requirement to
score a site historically has been to enable the site to receive state funding. This being
the case, sites with identified active responsible parties may not have been a high
priority for scoring. This issue is also raised in Appendix A, page 22.

Information as to the source of the problem experienced by the auditors would need to
be provided to enable a more specific response to this concern.

Chapter 3, page 13.
The draft report does not acknowledge the Michigan Department of Environmental
Quality’s (MDEQ’s) approach to sediment criteria. Although most of Michigan’s cleanup
criteria are promulgated in rules which include look-up tables, the mechanism to
address contaminated sediments can be found in Rule 730 of Part 201, Environmental
Remediation, of the Natural Resources and Environmental Protection Act, 1994 PA 451,
as amended (Part 201). Issues that need to be addressed in establishing specific
sediment criteria include impacts to fish and wildlife (either directly or as a food source);
degradation of the benthos; restrictions on use; beach closings; habitat loss; and
unacceptable risk through human contact.

Chapter 3, page 14.
Permanence is identified as a factor in evaluating remedial options as can be found in
Section 18(4) of Part 201. Section 18(4) states in part, “…remedies that permanently
and significantly reduce the volume, toxicity, or mobility of the hazardous substances
are to be preferred.”

Chapter 3, page 15, Recommendation 3-1.
This recommendation does not give credence to the current risk evaluation processes
utilized by states. By only recommending that ways be found to provide flexibility where
possible and appropriate, this falls far short of providing any real advancement in
efficiency in the Superfund Program. The MDEQ, like many state environmental
agencies across the country has successfully demonstrated to the United States
Environmental Protection Agency the ability to address site remediation under the
hazardous waste and leaking underground storage tank programs. Why then, cannot a
stronger recommendation be made to look at updating the Superfund Program to allow
a similar delegation authority as those found in the hazardous waste and tank
                                             63
programs? By recommending that Superfund be updated to allow state authorization or
delegation, many of the time sinks and duplication of efforts inherent in the Superfund
Program could be eliminated. State run cleanup programs, and state authorized
hazardous waste and tank remediation programs often address sites as large and/or
complex as many Superfund sites. States have shown that they are capable of
handling sites of this magnitude.

Chapter 4, pages 19 and 20.
It is agreed that with decreasing budgets, at both the federal and state level, the state’s
ability to address long-term remedial action (LTRA) at sites will be stretched. This being
said, it should be noted that the MDEQ has been evaluating the LTRA needs for sites
where we will assume the financial responsibility for long -term operation and
maintenance of these systems, and intends to continue to work to meet those
obligations. We strongly support the efforts to conduct optimization studies and urge
that the report strongly recommend that these studies be conducted on a priority basis
at sites where the transfer of responsibility to the state is imminent, or where project
managers have raised concerns about the effectiveness of a current system.
Recommendation 4-2 should suggest an aggressive time line for the completion of the
guidance on optimization of LTRAs.

Appendix 1, page 22.
Please see the comments relative to Chapter 2, pages 7 and 8.

Appendix B, page 25.
The reference to the staffing levels is misleading due to a restructuring of the MDEQ
which took place in 2002. Hiring freezes and the inability to replace staff who took an
“early-out” retirement package in 2004 have reduced the number of staff working in the
Remediation and Redevelopment Division (RRD) cleanup program. The 2002
restructuring that created the RRD also added the leaking underground storage tank
responsibilities to the cleanup program, thus potentially masking staffing reductions with
additional program duties.

Appendix B, page 26.
As stated earlier, the MDEQ does have a mechanism to address contaminated
sediments in Part 201 (see comment under Chapter 3, page 13). In addition, the MDEQ
also has criteria for evaluation of the Groundwater/Surface Water Interface, or GSI.
This criterion is used to evaluate the impact that contaminated groundwater may have
on a surface water body into which it discharges. The evaluation is modeled on the
process used to evaluate point source discharges under the National Pollutant
Discharge Elimination System, and is an Applicable or Relevant and Appropriate
Requirement under Superfund.

Appendix E
We are not aware of an optimization study having been performed at the U.S. Aviex
site.
                                            64
                                            Appendix I




Pennsylvania’s Comments to Draft Evaluation Report




                        65
66
                                        Rachel Carson State Office Building
                                                  P.O. Box 8471
                                           Harrisburg, PA 17105-8471


Land Recycling and Cleanup Program                                                 717-783-7816

Mr. Michael Owen
Assignment Manager
U.S. Environmental Protection Agency
Office of the Inspector General
1200 6th Avenue (OIG-195)
Seattle, WA 98101

Dear Mr. Owen:

       We have reviewed the draft report, States May Not Meet Future Superfund Cleanup
Requirements and Some Current Cleanup Needs Cannot Be Addressed, and concur with your
findings, but would like the following comments included in the final report:

      1. The reference to Pennsylvania's backlog (Page 7, Paragraph 2) of approximately 90
         sites requiring assessment and incomplete inventory data needs additional
         clarification. The State and EPA Region III utilize a work share database, maintained
         by the EPA Region, that tracks the state or federal agency lead for the assessment and
         cleanup of National Priorities List (NPL) Caliber priority sites. The inventory data
         maintenance and updates are a function of EPA Region III with input from
         Pennsylvania's six Regional DEP Offices. The work share status of the NPL caliber
         sites is not a reflection of the state inventory data, but a separate inventory maintained
         by EPA Region III.

      2. The report text (Page 14, Paragraph 3) and the Appendix D Memo regarding the
         remedy selection for the ADSCO Site State- led cleanup requires additional language
         to conclude remedy protectiveness. The original remedy selected for the site was re-
         evaluated due to cost effectiveness brought on by state budget restraints. The re-
         evaluation resulted in a modified remedy considering cost effectiveness with
         additional monitoring to assure protectiveness of human health and the environment.
         The original remedy selection was retained as a contingency if the modified remedy
         proved not to be protective. The public notification process was satisfied according
         to state requirements due to the modified remedy being one of the alternatives
         considered throughout the remedy selection process. This sele ction process was
         discussed in detail with the Office of Inspector General staff and the EPA Region III
         Site Assessment Program.


                                                   67
Mr. Michael Owen                             -2-                               August 3, 2004


       We appreciate the opportunity to review and comment on the report. If you have further
questions, please contact me at (717) 783-7816 or tfidler@state.pa.us.

                                                   Sincerely,



                                                   Thomas K. Fidler
                                                   Manager



cc: Kathleen A. McGinty, Secretary
    Nicholas A. DiPasquale, Deputy Secretary for Air, Recycling and Radiation Protection
    Eugene A. DePasquale, Deputy Secretary for Community Revitalization & Local
             Government Support
    Michael G. Forebeck, Acting Director for the Bureau of Land Recycling and Waste
             Management
    Patricia L. Renwick, Chief for the Division of Remediation Services
    Charles Swokel, Acting Chief for the Division of Storage Tanks




                                              68
                                        Appendix J




Kansas’ Comments to Draft Evaluation Report




                    69
70
                                          K A N S A S
RODERICK L. BREMBY, SECRETARY                                                               KATHLEEN SEBELIUS, GOVERNOR

                                         DEPARTMENT OF HEALTH AND ENVIRONMENT



                                                      July 26, 2004
       EPA Office of Inspector General
       Attn: Michael Owen
       1200 6th Avenue (OIG-195)
       Seattle, Washington 98101

       RE: Assignment Number 2003-000118

       Dear Mr. Owen:

               The Kansas Department of Health and Environment (KDHE) appreciates the opportunity to
       provide comment on the draft report titled, “States May Not Meet Future Superfund Cleanup
       Requirements and Some Current Cleanup Needs Cannot Be Addressed.” The report presents an
       evaluation of the effectiveness of State hazardous waste cleanup programs conducted by the Office of
       Inspector General. The report evaluates five state programs and makes general conclusions and
       recommendations based on cumulative findings.

                KDHE is concerned the title of the report is too generic and therefore may misrepresent the actual
       findings in a particular state. KDHE believes, that each state is unique in their organizational structure and
       capabilities to address contaminated sites. Strengths and weaknesses vary from state to state, as do each
       state’s needs. KDHE can not represent the interests of the other states, nor can the other states represent
       KDHE opinions. A global statement indicating states may not meet future requirements and cleanup needs
       may misrepresent a specific state program.

               KDHE agrees that there are global concerns with funding. In particular, federal and state funding
       in Kansas has been consistently reduced over the last few years. These reductions are leading to
       assessment backlogs as discussed in the audit report, but more importantly the reductions in funding is
       leading to orphan sites that can not be addressed following assessment. One of the objectives of the
       assessment program in the State of Kansas is to identify potentially responsible parties (PRPs). If PRPs
       are identified the site is transferred to an appropriate state response program (Voluntary Cleanup, State
       Cooperative, Enforcement, Dry Cleaning, Tanks, etc.) for future work. These sites are generally addressed
       in a cooperative manner between the PRP and the state.

                                            DIVISION OF ENVIRONMENT
                                        Bureau of Environmental Remediation
                CURTIS STATE OFFICE BUILDING, 1000 SW JACKSON ST., STE. 410, TOPEKA, KS 66612-1367
                           Voice 785-296-1660     Fax 785-296-1686     http://www.kdhe.state.ks.us/

                                                             71
Mr. Michael Owen
Page 2




Thousands of sites are currently being managed by these state response programs. Unfortunately, there
are also sites where a PRP can not be identified or is no longer a viable entity (i.e., bankruptcy,
defunct, etc.). These sites must be addressed using available state and federal funding. These sites still
need to be addressed by an appropriate program whether they are classified as a “Superfund” site or not.
When state and federal funding is reduced these sites do not get worked and as a result there may be
threats or risks to human health and the environment that are not being addressed by states and federal
programs.

         Reducing the funding available for any given phase (assessment, investigation, removal, remedial)
will create backlogs of sites within that phase, which ultimately means that sites are not
being adequately addressed. Reducing funding for assessments will result in less new sites, citizens
complaints, etc. being assessed to determine if a problem exists, and if so the priority of the problem.
Reducing funding for remediation means less resources will exist to perform corrective action at sites. In
any case there will be an increase in the potential risks to public health and the environment due to funding
reductions. Historically, federal funding has made a difference in the state’s ability to develop programs
to address thousands of sites across the nation. The number of sites being addressed collectively by
KDHE’s state response programs, and the manner in which they are being addressed is an unquestionable
positive outcome for the citizens of our state. Obviously without such funding the ability of Kansas, and
the other states to address such sites will decrease.

     This letter outlines KDHE’s comments which identify concerns specific to the state of Kansas.
Comments are defined by chapter and page number followed by the statement in the report.

Executive Summary Comments:

1. Executive Summary, page i - “However, the States’ abilities to meet current and future
responsibilities for the Superfund program as well as their own cleanup programs are limited.”

Comment - As previously stated, this statement is global in nature and may not accurately represent the
findings in the individual states. Individual state programs are unique and their successes or limitations can
not be summarized in one simplified statement that may misrepresent a state or program. A global
statement that “less sites can be addressed by the states and federal government because of the continued
decrease in available funding,” may be more representative.

2. Executive Summary, page i - “Specifically, we found that the States have backlogs in addressing
hazardous waste sites, use flexible remedy decision processes that are not equivalent to Superfund’s
process, and appear to be significantly challenged in their ability to meet their required, and
impending, obligations at current Superfund sites.”


                                                     72
Mr. Michael Owen
Page 3




Comment - Again this is a generalized statement that may not represent the findings of each state. To
clarify this statement for Kansas: KDHE has a backlog of what we believe are low priority sites that need
to be assessed; KDHE uses flexible remedy decision processes that meet the public
notification processes and the cleanup criteria of one in a million to one in ten thousand as defined
by the NCP, and KDHE is financially challenged in our ability to meet the required 10% match at
Superfund fund-lead sites and the 100% operation and maintenance requirements following ten years of
operation at those sites.

3. Executive Summary, page ii - “Until these backlogs are eliminated, the States cannot assure
that sites posing the greatest threat to human health and the environment are being addressed
promptly, and the backlog may limit the States’ capacity to address future hazardous waste sites,
including sites on the NPL.”

Comment - KDHE is averaging five to seven new sites per month. These sites are screened to determine
the sites with the greatest risk. Sites posing the greatest threat to human health and the environment are
being addressed promptly by the state of Kansas. Sites that are believed to be low priority remain on the
list of sites to be assessed. KDHE believes that for the state of Kansas, the statement “States cannot
assure that sites posing the greatest threat to human health and the environment are being addressed....”
is not accurate. Currently, KDHE believes that all sites with known human health and environmental risks
are being addressed by either the state or EPA Region VII. We are unaware of any known site with a
moderate to high risk that is not being addressed. However, this may not be the case in the future if there
is a continual decrease in state and federal funding.

There are known sites with low risk to human health and the environment that have been identified but, are
not currently being addressed because of limited resources. The concept of addressing the worst sites first
has always been implemented by the state of Kansas; however, following assessment many lower priority
sites are being addressed by KDHE when there is a progressive, cooperative responsible party.

4. Executive Summary, page ii - “Therefore, if EPA wants the States to assume a larger role in
addressing NPL sites, it should consider giving the States greater flexibility in their remedy selection
process.”

Comment - KDHE agrees with this statement.

Chapter 1 Comments:

No comments.



                                                    73
Mr. Michael Owen
Page 4


Chapter 2 Comments:

5. Page 8: The statement, “Kansas has a backlog of 122 sites pending assessment under its
cooperative agreement with EPA.” is not a factual statement.

Comment: KDHE’s cooperative agreement with EPA outlines a specific number of assessments that
KDHE can complete given the annual (state and federal) funding and staff resources. The agreement
identifies that KDHE complete a certain, specific number of assessments at unnamed sites
in the state. Sites are unnamed at the time of the grant, to give the state the flexibility to assess higher
priority sites that are identified during the grant year as opposed to be restricted to assessing specific sites
which may be a lower priority. KDHE has always met or exceeded the target numbers in the grant. Grants
and commitments are negotiated annual by KDHE and EPA Region VII. The highest priority sites are
assessed under the grant for that year. Remaining sites that have not been
assessed by the federal site assessment program may carry over to the next grant or may be worked by
another state program. Therefore, there are not 122 sites pending assessment under our cooperative
agreement with EPA. At the time of the audit there were 122 sites that needed assessed
by KDHE either with state or federal funding. The backlog of sites is directly related to the reductions in
state and federal funding as previously discussed and not a failure to meet grant commitments.

6. Page 8: The statement, “Over 50 percent of these sites have been in the State’s inventory for
more than 5 years.” is misleading.

Comment: Sites that have been in the system for an extended period of time have been screened and
deemed as a low priority, low risk site that will be assessed once higher priority sites have been assessed.
The screening takes into account the geographical location of the site (i.e., aquifer, water use, etc.),
potential receptors, known contaminant levels, type of contaminants, etc. While the term backlog would
imply that no action has been taken, the fact is that a desk-top evaluation has been performed to insure that
those sites remaining on the inventory are truly low priority.

7. Page 8: The statement, “...the State has a backlog of 30 sites pending priority scoring for
remediation.” is inaccurate..”.

Comment: In Kansas, sites are not scored for remediation but, are scored for further investigation
following assessment. Following the identification of a new site, sites are screened to determine relative
priority based on the factors identified in previous comments. Sites that are screened as higher priority are
assessed by the Site Assessment Program under the cooperative agreement. Sites that go through the
traditional federal site assessment process are pre-scored. Some sites are assigned to the State Water Plan
Program (state funding) where they are scored as required by the program. The sites assigned for
assessment with state funding are generally sites with non-hazardous


                                                   74
Mr. Michael Owen
Page 5




substances or sites that will require a more extensive assessment due to their geographical location (i.e.,
deep drilling). No site is ever scored for remediation, as so stated.

8. Page 8: The statement, “State funding limitations precluded the State from scoring more sites”
is inaccurate.

Comment: There are no funding limitations associated with scoring a site. A site can be scored at any time
following assessment. Sites that are assessed and referred to the State Water Plan program are scored
prior to further work in that program. The statement should refer to the funding limitations regarding
cleaning up orphan sites in the State Water Plan Program once sites are scored.

9. Page 9: The statement, “States cannot assure that sites posing the greatest threat to human
health and the environment are being addressed promptly, and the backlog may limit the States’
capacity to address future hazardous waste sites, including sites on the NPL.” is misleading.

Comment: In Kansas, all newly identified sites are screened to determine their relative priority. Those sites
with a “moderate to high priority” are assigned for site assessment. Sites with “low priority” may not be
assessed until all moderate to high priority sites have been assessed. These low priority sites do not
represent a known risk to human health and/or the environment. In the State of
Kansas, sites posing the greatest threat to human health and the environment are being assessed. However,
if after assessment a site is determined to be an orphan site, there may not be enough federal or state
funding to address the problem.

Comment on Recommendation: The limitations of conducting assessments are two-fold: 1) The federal
government has not realized that new sites are identified on a daily basis through citizen’s complaints, local
government referrals, private site assessments, etc. KDHE has documented that the number of new sites
has remained fairly constant (for example in 2000 a total of 51 new sites were identified and in 2003 a total
of 63 new sites were identified) each year. Note: these numbers do not include new sites entering into the
KDHE’s Voluntary Cleanup Program; 2) Although the rate of newly identified sites is constant, the amount
of federal funding for the site assessment program has declined annually. State funding has also decreased
at 5-10 percent annually. The backlog of sites is directly attributable to the reduction of funding at both
the federal and state level, not the amount of sites scored. As previously stated, the continued reduction
of state and federal funds also limits the actions that can be taken on orphan sites following assessment.

KDHE concurs with the recommendation that additional funding is needed to maintain or meet current
assessment needs. Federal site assessment funding has been reduced by the Region on an annual basis;
however, the number of new sites that need assessed per year is not decreasing.



                                                     75
Michael Owen
Page 6




Chapter 3 Comments:

No comments.

KDHE concurs with the recommendation that their should be flexibility in the use and application of
baseline risk assessments to streamline the process.

Chapter 4 Comments:

10. Page 18: Table 4.1 and Figure 4.1, need to be revised to reflect the O&M costs associated with the
Ace Superfund Site. KDHE will be assuming O&M responsibility for this site in September of 2013 with
an estimated cost of $325,000 per year.

11. Page 20: KDHE would like you to consider the following recommendation:

        4-3.     EPA should consider performing a system optimization study during the LTRA and
                 a minimum of 1) for the five year review period and, 2) prior to the ten year review.
                 These studies should be performed jointly with the states.

EPA should develop training for their project managers to create a philosophy of continuous system
evaluation and optimization. EPA should seek project managers with strong technical background in site
remediation and empower those managers to perform system evaluations as data is generated. Contracts
for site remediation should have performance criteria that must be met or a vendor can be replaced.
System review should not be limited to a five year process. When EPA is spending millions of dollars a
year on site remediation, project managers should be providing extensive oversight to insure that systems
are effective.

Appendix B:

Page 26, Clarification of the following statement, “The State does not require a risk assessment because
Tier 2 cleanup standards are applied to most NPL-Caliber sites.”

In Kansas, Tier 2 standards are the default standards and are established at 10-5 which is within the
protective range of 10-4 to 10-6 as defined by the NCP. For groundwater sites the federal MCL is also
used as default standards. A baseline risk assessment is only required for sites when the responsible party
must follow the National Contingency Plan for future liability protection. This determination is generally
made by the responsible party. Tier 3 also can include a risk analysis using site-specific data in the existing
Tier 2 formulas or a baseline risk assessment.


                                                      76
Mr. Michael Owen
Page 7




Appendix C:

Page 27, Table - It is difficult, if not impossible to compare the scoring system in Kansas to the national
HRS scoring system. The range provided in the table of 30-100 for an NPL-caliber range site is arbitrary.
KDHE does not have a range or a specific score in it’s scoring system to designate a site as an “NPL-
caliber site.”

Appendix E: See Comment 10.

        KDHE would like to thank you for the opportunity to comment on this report. If you have any
questions regarding our comments please call me at 785-296-1662.


                                                 Respectfully,


                                                 Gary Blackburn, Director
                                                 Bureau of Environmental Remediation


cc: Rick Bean
    Leo Henning




                                                    77
78
                                         Appendix K




Washington’s Comments to Draft Evaluation Report




                       79
80
July 28, 2004




Mr. Michael Owen
Environmental Protection Agency
Office of Inspector General
1200 5th Avenue, OIG-195
Seattle, Washington 98101

Dear Mr. Owen:

Thank you for the opportunity to review the draft report, States May Not Meet Future Superfund
Cleanup Requirements and Some Current Needs Cannot Be Addressed. We appreciate this
opportunity and hope that our comments will be useful to the Office of Inspector General (OIG)
as this report is finalized.

General Comments
As an overall comment, and distinguishable from the body of the report, we are concerned that
there is a disconnect between the title of the report, the Executive Summary, and report findings.
Readers of this report will be lead to believe that each of the five state programs reviewed have
deficiencies. We believe this not to be the case.

Toward that end, we believe the real issue is declining federal superfund resources and grant
funding to state programs. Many states including Washington, have more comprehensive and
efficiently run programs than those at the federal level. Furthermore, the breadth of sites that
states manage is more expansive by number and type of contaminant addressed than those at the
federal level. The draft report accurately describes the substantive equivalency nature of state
programs to the federal program and the derived benefits of efficiency, flexibility, and cost-
savings of these programs.

Hence, language in the report should more directly link how declining federal funding impacts
state programs. This can be accomplished by rewording the title of the report and the headings
in the Executive Summary to reflect federal program and funding shortfalls. As example, on
page ii, replace States Need to Address Backlogs in Site Assessments and Scoring with “The
Decline in Federal Funding has Increased Backlogs in Site Assessments and Scoring.” This
rewording more accurately represents the findings and the actual recommendations.


                                                81
Mr. Michael Owen
July 28, 2004
Page 2


Specific Comments
1. Executive Summary, page ii, first full paragraph, last sentence, regarding backlogs (Note –
the following two points commented on immediately below are also found at the end of the first
paragraph, page 5; and in the paragraph ending at the top of page 9):

       Statement: “Until these backlogs are eliminated, the States cannot assure that sites posing
       the greatest threat to human health and the environment are being addressed promptly,
       and the backlog may limit the States’ capacity to address future hazardous waste sites,
       including sites on the NPL.”

       Comment: First, it is important to recognize that the backlog of unassessed sites
       represents a dynamic process, with new sites being continually added at the same time
       other sites are removed due to assessments being completed. Consequently, there will
       generally always be a backlog, unless limitations in funding precludes further “site
       discovery” to continue to add new sites to the list.

       Second, in Washington State, while it is true these “backlogged” sites have not been
       formally ranked, they have been subjected to an “initial investigation”. This includes a
       records review, site inspection, and, usually, limited sampling. Any imminent risks are
       identified and addressed as part of this process, and higher risk sites are prioritized for
       ranking. Thus, this backlog represents lower risk sites, and we believe does not impede
       our ability to take on higher risk sites if one is identified.


2. Page 8, regarding the backlog in Washington State:

       The statement “According to program officials, this backlog is primarily attributable to
       an increase in its site inventory resulting from the deferral of CERCLIS sites from EPA,
       and funding limitations.” is not entirely true.

       Ecology has to date addressed at least 82% of the 500-plus sites referred by EPA for
       further action, with only 34 sites (6% of total) currently awaiting assessment. In
       Washington State most detailed site assessments and rankings are being done by local
       health districts with funding provided through state grants. The overall State backlo g is
       due to a combination of factors: Some sites are ineligible to be assessed by local
       government due to a potential conflict of interest; many of the backlogged sites are low
       risk, and assessments are instead done on those sites perceived to be of a higher risk
       regardless of time of entry into the backlog; and lack of state funding/staffing limits
       assessments being conducted by the state in those counties not funded at the local level.



                                                    82
Mr. Michael Owen
July 28, 2004
Page 3


3. Page 25, Appendix B, third paragraph, first sentence:

        “The State Toxic …” should read “The State Toxics …”

4. Page 26, Appendix C, second paragraph, third sentence:

        “… assigned scores do not establish priorities or the absolute order …” should read “…
        assigned scores do not establish absolute priorities or the order …”

5. Page 26, Appendix C, second paragraph, fourth sentence:

        “Instead, the scores provide a general ranking of sites …” should read “Instead, the
        scores provide a relative ranking of sites …”

6. Page 27, last paragraph, last sentence:

        “… the State also considers other factor such …” should read “…the State also considers
        other factors such …”

Should you have any questions, please feel free to contact me at (360) 407-7226.

Sincerely,



Tim Nord
Headquarters Section Manager
Toxics Cleanup Program

TN:cp

cc:     Linda Hoffman, Ecology Director




                                                83
84
                                                                                      Appendix L




                                      Distribution

Office of the Administrator (1101A)
Acting Assistant Administrator, Office of Solid Waste and Emergency Response (5103)
Director, Office of Superfund Remediation and Technology (5201G)
Comptroller (2731A)
Agency Followup Official (2710A)
Agency Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Solid Waste and Emergency Response (5103)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator for Public Affairs (1101A)
Inspector General (2410)




                                               85
